<html>
<title> - CLASSIFICATIONS AND REDACTIONS IN FBI'S INVESTIGATIVE FILE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









       CLASSIFICATIONS AND REDACTIONS IN FBI'S INVESTIGATIVE FILE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2016

                               __________

                           Serial No. 114-123

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]














         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-913 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                         Liam McKenna, Counsel
                        Laura Rush, Chief Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 12, 2016...............................     1

                               WITNESSES

The Hon. Peter Kadzik, Assistant Attorney General for Legislative 
  Affairs
    Oral Statement...............................................     9
Mr. Jason Herring, Acting Assistant Director for Congressional 
  Affairs, Federal Bureau of Investigation
    Oral Statement...............................................     9
Ms. Deirdre Walsh, Assistant Director for Legislative Affairs, 
  Office of the Director of National Intelligence
    Oral Statement...............................................    10
Mr. Neal Higgins, Director of Congressional Affairs, Central 
  Intelligence Agency
    Oral Statement...............................................    18
The Hon. Julia Frifield, Assistant Secretary, Bureau of 
  Legislative Affairs, U.S. Department of State
    Oral Statement...............................................    35
Mr. James Samuel, Jr., Chief of Congressional Affairs, National 
  Georspatial-Intelligence Agency
    Oral Statement...............................................    42
Mr. Trumbull Soule, Director of Legislative Affairs Office, 
  National Security Agency/Central Security Service
    Oral Statement...............................................    42

                                APPENDIX

CRS Report from October 3, 2007, submitted by Mr. Chaffetz.......    52
Letter from Chairman Waxman to Attorney General Mukasey dated 
  December 3, 2007, submitted by Mr. Chaffetz....................   113
Letter from Chairman Conyers to Attorney General Gonzales dated 
  September 10, 2007, submitted by Mr. Chaffetz..................   118
Witness invitation letters, submitted by Mr. Cummings............   123
Letter from Chairman Chaffetz to Chairman Nunes-HPSCI dated 
  August 24, 2016, submitted by Ms. Maloney......................   131
Vote to close hearing............................................   132

 
       CLASSIFICATIONS AND REDACTIONS IN FBI'S INVESTIGATIVE FILE

                              ----------                              


                       Monday, September 12, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 5:00 p.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Turner, Duncan, 
Jordan, Walberg, Amash, Gosar, Gowdy, Farenthold, Lummis, 
Massie, Meadows, DeSantis, Mulvaney, Buck, Blum, Hice, Russell, 
Carter, Grothman, Hurd, Palmer, Cummings, Maloney, Clay, Lynch, 
Connolly, Cartwright, Kelly, Lieu, Watson Coleman, DeSaulnier, 
and Welch.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. We have an important 
hearing today. I appreciate all being here. I got to tell you, 
though, I wish I didn't have to compel you all to be here. We 
asked you as legislative liaisons to come participate with us 
and which you refused.
    So the Committee on Oversight will come to order. Without 
objection, the chair is authorized to declare a recess at any 
time.
    We have a couple of goals for the hearing and our 
investigation, and I need to do our constitutional duty. One, 
the FBI needs to produce its full investigative file to the 
United States Congress. And I mean the full file, not just the 
parts the FBI deemed relevant. Right now, we only have the 302s 
handpicked by the FBI. We decide what's relevant, not the 
Department of Justice, not the FBI. We're entitled to the full 
file.
    Two, all unclassified portions of the file should be 
released to the public as quickly as possible. It has been more 
than 20 days since, I'm sure, the very first FOIA request was 
put out there and, by law, that should be out there. I want to 
commend the FBI for already releasing its investigative summary 
report and Secretary Clinton's 302 interview summary to the 
public. We do appreciate that, and it's duly noted. But there 
are still a number of 302s left for the FBI to release. We were 
surprised to learn that the 302s, the so-called investigative 
files provided to the United States Congress, at least to the 
security officer, were only a portion of them, not all of them.
    And three, all Members of Congress should be able to review 
the entire file right now, unless you're part of the Intel 
Committee, Oversight Committee, the Judiciary Committee, and 
the Appropriations Committee, these are--if you're a member, 
you have to be on those committees in order to view what is 
currently in the SCIF. It's unclear to me how the FBI can 
prevent a Member of Congress from seeing what we're already 
allowed to see by law, yet here they have done so. Even the 
unclassified information. That's what's mystifying to me. Even 
unclassified information you're preventing Members of Congress 
from seeing.
    But we do believe we should be able to see the file and the 
whole file, and it's disappointing that we are here today. We 
have a number of questions about the redactions, the 
classifications. I thought a number of those things would just 
be entered in a briefing. You know, Elijah Cummings, my--the 
ranking member here, has made a point on several occasions that 
rather than just going right into a hearing, let's go to a 
briefing.
    We had legitimate questions. We did have this planned for 
last week. We did have more than 12 Members of the Congress 
show up to have that briefing, and none of you showed up. 
That's inexcusable. You're the congressional affairs officers. 
It's your job to talk to Congress. And for some of you, I had 
to threaten to send a subpoena just to get you to appear today.
    We did some--did some math. We've got seven of you sitting 
here. Between your compensation and your benefits package, you 
make more than $1 million from taxpayers. The taxpayers are 
paying you seven more than $1 million, and you won't even come 
talk to Congress. What do you do all day if you don't talk to 
Congress? That's your job.
    So we're going to do that today. And the irony here is 
we're trying to protect the classified information. I didn't 
create this mess. Hillary Clinton created this mess. There are 
years of Federal records. Some of it so classified, none of us 
in this room should probably see them. Most of it's 
unclassified. But we have a duty and an obligation to protect 
that information.
    I believe that's probably the same goal that you have, but 
we're going to have to have a reality check here. She's the one 
that took the records from the State Department, gave access to 
people who don't have security clearances. The case is closed. 
There's no consequences, nobody being held accountable. But we 
also had an FBI director come and testify that he never looked 
at her testimony under oath, and somehow we have a classified 
system and we have a nonclassified system, and somehow 
information was going from the classified system into a 
nonclassified system.
    So it's ironic that you don't want to appear before this 
committee out of a concern for protecting classified 
information when Hillary Clinton walked around with a 
Blackberry full of classified information and gave access to 
sensitive Federal records to folks without security clearances 
at all.
    I want to understand from each of you what it is you think 
that Congress should not see. See, I believe passionately in 
the role of Congress. I believe passionately in the Oversight 
and Government Reform Committee. We were founded in 1814. Every 
expenditure, everything we do in this Congress--or everything 
we do in this Nation is supposed to be overseen by us. We can 
investigate anything at any time. That's what's different about 
the United States of America. We're different because we are 
self-critical, we do go look under the hood, we do hold people 
accountable. That's why when Abraham Lincoln joined the United 
States Congress, he was on this committee, and he peppered the 
President because he didn't believe that the Mexican-American 
War started as the President said it was. And there has been a 
rich history of that throughout generations.
    We can't do that when each of the agencies that you all 
represent decide that, well, we're just going to show you the 
relevant information. We're not even going to answer your 
questions. You can't see those documents. That's the way a 
banana republic acts. It's not the way the United States of 
America acts. So we expect better and we expect you to be 
responsive, and I don't expect to have to issue a subpoena to 
see unclassified information.
    While we can't be certain what is under each of the 
redactions within the documents, as far as we can tell, the 
redactions are covering information commonly given to Congress, 
such as names of key fact witnesses, titles and positions of 
government employees at the State Department, and Gmail 
accounts. There's nothing classified about that information.
    While I understand there's an argument to withhold 
information under the Privacy Act or the Freedom of Information 
Act, neither of those apply to Congress or any other 
committees. As I understand it, the FBI is not withholding any 
information based on the Privacy Act. Instead, they just don't 
want to give us the information. So there's really no legal 
basis for these redactions.
    The FBI also chose to redact any information in the report 
classified above secret. This also makes no sense. As a Member 
of Congress, we routinely receive documents and briefings from 
the intelligence community at the highest levels of 
classification, with the exception of sources, methods, with 
the exception of the SAP material. So any redactions have to be 
based on classification, have to be removed. We have to be able 
to see that information.
    We also have questions on what the FBI file contains. Oddly 
enough, the copies of the file provided to us by the FBI are 
different. We are very grateful that they provided the first 
set on a Tuesday. I believe it was August 16th. The next day we 
got a second set. The problem is the second set had 27 emails 
more than the other one, which we are grateful for. It was an 
improving file. Only to have the FBI try to come back and 
recover those, not because it was SAP material, because it's 
embarrassing. That's why. It was embarrassing. But we should 
have had it in the first round. We should have had it at the 
very beginning.
    I also want to put this request in context because it's far 
from the first time Congress or even this committee has 
requested an investigative file from the FBI or the Department 
of Justice. Congressional committees are routinely provided 
investigative materials by the Department of Justice and the 
FBI.
    I ask unanimous consent to enter into the record the 2007 
CRS report.
    Chairman Chaffetz. This was done when things were going on 
with the dismissal of the U.S. attorneys. I'm going to read, 
it's a little bit long, but this is as good a summary as to why 
Congress should be able to see this as anything, and I have got 
to read a few sentences here.
    From the CRS. A review of the historical experience and 
legal rulings pertinent to congressional access to information 
regarding the law enforcement activities of the Department of 
Justice indicates in the last 85 years, Congress has 
consistently sought and obtained deliberative prosecutorial 
memoranda and the testimony of line attorneys, FBI field 
agents, and other subordinate agency employees regarding the 
conduct of open and closed cases in the course of enumerable 
investigations of the Department of Justice activities.
    These investigations have encompassed virtually every 
component of the Department of Justice and its officials, 
employees, from the Attorney General down to the subordinate 
level personnel. It appears that the fact that an agency, such 
as the Justice Department, has determined for its own internal 
purposes that a particular item should not be disclosed or that 
the information sought should come from one of the committees 
or subcommittees or does not prevent either the House of 
Congress or its committees or subcommittees from obtaining or 
publishing information it considers essential for the proper 
performance of its constitutional functions.
    There appears to be no court precedent that impresses the 
threshold burden on committees to demonstrate, for example, 
quote, ``a substantial reason to believe wrongdoing occurred,'' 
end quote, before a jurisdictional committee may seek 
disclosure with respect to the conduct of specific open and 
closed criminal and civil cases.
    Indeed, the case law is quite the contrary. An inquiring 
committee need only show that the information sought is within 
the broad spectrum of the matter of its authorized 
jurisdiction, is in aid of a legitimate legislative function, 
and is pertinent to the area of concern.
    And it goes on for page after page after page of precedent 
here. Basically, there is no legal reason why you should 
withhold any of this information from the United States 
Congress. This goes back from the Teapot Dome bribery scandal, 
to Valerie Plame, to what was done by Chairman Waxman when he 
requested the FBI 302s for President Bush, Vice President 
Cheney, Karl Rove, and several other senior advisors.
    I have two other things that I'd like to enter into the 
record. I ask unanimous consent to enter into this--to enter 
the CRS report as well as the December 3, 2007, letter from 
Chairman Waxman to Attorney General Mukasey in the record.
    Without objection, so ordered.
    Chairman Chaffetz. I'd also ask unanimous consent to enter 
the September 10, 2007, letter from Chairman Conyers to 
Attorney General Gonzales into the record.
    Without objection, so ordered.
    Chairman Chaffetz. And finally, I want to commend the FBI 
for making its summary report and 302 of Secretary Clinton 
public. I do appreciate that. It's a good start. It's a good 
start. But it's time we be candid and honest with the American 
people, you allow Congress to do its job. I didn't pick this 
timeline. Hillary Clinton picked this timeline.
    I don't care about the election, what time it is, we're 
going to keep going at this full speed ahead. It is far, far 
too important.
    With that, I will now recognize the ranking member, Mr. 
Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    To the witnesses, I hope that as you listened to the 
chairman, if you think that the cases that he has cited, 
previous cases involving, for example, the U.S. attorneys are 
distinguishable from what's happening here today, I'd just like 
to know. I think he makes a very good point. Other than the 
fact that in, I guess in some of those cases, at least, the 
Justice Department was accused of doing something wrong, but I 
would like to know exactly where you all stand on that, because 
I think he makes a very good point.
    Well, here we are again, another day in the Oversight 
Committee, another emergency hearing about Hillary Clinton. 
Today is the second hearing about Secretary Clinton we have 
held in three business days, and tomorrow we will have a third.
    For the record, Mr. Chairman, I want to thank you. And I 
want the American public to know that you have agreed to 
schedule a hearing on EpiPen, which affects so many of our 
constituents because that too is an emergency situation for the 
constituents of every member who sits here in this chamber 
right now.
    As far as I can tell, the only emergency is that the 
election is less than 2 months away. The real reason for 
today's hearing is that FBI Director James Comey refused to be 
summoned before this committee yet again. He refused. Director 
Comey has already bent over backwards, departed from 
longstanding law enforcement precedent, and provided our 
committee with an unmatched level of transparency about his 
internal decisionmaking regarding this investigation.
    First, he announced the results of his investigation 
publicly. Normally, the FBI does not discuss its internal 
decisionmaking, but Director Comey did so in this case.
    Second, he agreed to testify in an emergency hearing before 
our committee 48 hours after his announcement. This is the FBI 
director. He sat right there in the witness chair and he 
testified about the evidence they obtained, the law they 
applied, and the decisionmaking process they employed. He 
described how, quote, ``an all-star team,'' unquote, of career 
FBI investigators came to the unanimous conclusion and how it 
wasn't even close.
    But the Republicans did not like the answers Director Comey 
gave, so they demanded copies of the FBI's internal 
investigative files. Again, in sharp break from past precedent, 
the FBI director agreed to share documents from the 
investigation in an effort to put this question to rest.
    But again, that was not enough for the Republicans, so they 
demanded the public release of these documents. Yet again, 
Director Comey broke from precedent. He released the FBI's 
internal investigative memo and the notes from their interview 
with Secretary Clinton.
    Let me state the obvious here. No matter what Director 
Comey does, it will never be enough for the Republicans. They 
are demanding that he bring criminal charges against Secretary 
Clinton, despite the fact that the evidence simply is not 
there. And that is something nobody, with integrity, would ever 
do.
    We sat here and we listened to Director Comey. Stated there 
were two things that matter most to him in his life. He said 
his family and his reputation.
    Last week, the Republicans wanted Director Comey to come up 
here one more time. But this time he said: Enough is enough. He 
spoke with Chairman Chaffetz personally and he told him enough 
is enough. In response, the chairman rushed to call today's 
emergency hearing. He dashed out letters as late as Thursday 
night, threatening even more subpoenas.
    The problem is that he invited the wrong people. The 
witnesses here today are the legislative affairs staffers from 
the FBI and other agencies. They did not make the decisions the 
chairman is upset about. Those decisions were made by none 
other than Director Comey.
    If the chairman has a problem with Director Comey, he 
should take it up with him, not beat up on legislative affairs 
staffers because the FBI director wants no part of any partisan 
charade. The FBI's legislative affairs staffer has been in his 
job for just a few weeks, Mr. Herring, and is currently serving 
in an acting capacity. He has been very responsive with our 
committee, and it makes no sense to hammer him just because 
he's following the directives of his boss, Director Comey.
    The whole hearing is a bait and switch. I have the 
invitation letters right here. And the chairman says that this 
hearing will be held in a classified session. I ask unanimous 
consent to put them in the record, your letters about this 
hearing.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. Thank you.
    Mr. Cummings. So that is what these witnesses prepared for. 
I don't know whether they spent their weekends preparing for a 
classified hearing or not, but I assume they did. They did not 
prepare to answer questions in open session. So what are we 
doing here?
    At the last minute, the chairman decided to hold this 
hearing in open session to try to generate more headlines 
rather than obtain the classified information he claims to 
seek. It is fundamentally unfair and irresponsible to force 
these witnesses to answer questions about this issue in open 
session. As we have all heard, the classification level of 
these documents have changed repeatedly, and dozens of highly 
trained diplomats did not think many of them were classified.
    These witnesses should not be forced to make surprise or 
on-the-spot determinations about what they can and cannot say 
in an open session. After all, we've had debates for the last 
several months about what's classified and what isn't 
classified. So not only is this unfair, but it risks the 
inadvertent disclosure of classified information.
    We should hold this hearing in a closed session, like the 
chairman said he would in his letter, rather than gather the 
information and then review the written transcript to determine 
what can be released publicly and what cannot. That is how a 
responsible approach would look, but that is not what is 
happening here.
    I guess this is what happens when you try to schedule a 
public attack against Hillary Clinton for every day of the 
week. You get frantic and you swap substantive discussions or 
set up hearings and cheap press hits. Democrats who are in this 
committee have serious questions--and by the way, Republicans 
have serious questions. It is not just the Democrats. --about 
our broken classification system. Even the chairman agreed with 
me last week that the system is broken and we need to work 
together to do something about it.
    And we all have, I think, have concerns about why so many 
of these documents were retroactively classified long after 
they were sent. But the only way to have that productive, 
substantive discussion is to go into closed session as the 
chairman's letter stated. The only reason for the hearing today 
is--open is because the Republicans know a closed hearing won't 
be on camera.
    And so with that, Mr. Chairman, I yield back, and thank 
you.
    Chairman Chaffetz. I thank the gentleman. And with some 
indulgence, the ranking member knows it is a requirement in 
House rules to go into a nonclassified setting to an open 
session prior to going into a classified setting. We have set 
up in the House visitor center the classified room that will be 
closed to the public and the press. We are prepared to go into 
that setting, but we're required by House rules to first come 
into this open session first. It does require a vote of the 
committee.
    Mr. Cummings. Would the chairman yield?
    Chairman Chaffetz. Sure.
    Mr. Cummings. Mr. Chairman, I guess what--it would have 
been helpful if you had laid that out from the beginning, 
because as I said to you up here at the dais and yesterday on 
the floor of the House, one of my concerns was that I don't 
want--I mean, if we're going to--we need to know what the 
ground rules are. Because when I look at it, if we're going to 
be discussing documents that were classified, trying to--I 
don't know how far we can even get in an open session without, 
you know, crossing that line. And I'm not trying to----
    Chairman Chaffetz. Sure.
    Mr. Cummings. --play any tricks. I just want to make sure 
that we don't create another situation where people are 
accusing us of violating the law.
    Chairman Chaffetz. And with--as the gentleman knows, there 
is a lot of classified information in Hillary Clinton's emails 
that should never ever see the light of day. That's why there 
is so much concern. That's why we're prepared to go into 
classified setting. That's why we believe we have the right 
witnesses here.
    And also, to clarify the record, I never had a conversation 
with Director Comey where I asked him to come again and he 
refused. That just never happened. I asked him some specific 
questions in a personal phone call that I had with him, if we 
had all the 302s. I was surprised to learn that we hadn't. I 
asked him a couple of other questions. He didn't know the 
answer and that we should work with his staff.
    The staff that the FBI has provided to us to work with is 
the legislative liaison. That's how we work with each of the 
agencies, is primarily with the legislative liaison. That's why 
we're here. And when we ask them to come to a briefing in the 
SCIF on--in closed doors, it is an embarrassment to this 
Congress that they wouldn't show up and answer those questions.
    Mr. Cummings. So how will we proceed today, Mr. Chairman?
    Chairman Chaffetz. So we will allow them to give opening 
statements. We will ask questions on this dais in the 
unclassified. If we want to get into the heart of what is under 
a certain--certain thing, and we want to get--and it's 
classified, then we'll have to do that in the classified 
portion. But we're going to do the unclassified first, then 
we'll excuse and we'll go to the House visitor center and ask 
things in a secure facility.
    Mr. Cummings. Thank you.
    Chairman Chaffetz. All right. It is highly recommended, it 
is part of our committee rules that you are to submit testimony 
24 hours prior. You are the legislative liaisons. You know 
this. You're supposed to know this. None of you have provided 
testimony, but I'm happy to recognize each of you, and--along 
the way. But let me do this.
    We will hold the record open for 5 legislative days for any 
member who would like to submit a written statement. We'll 
recognize our panel of witnesses. If any of you have opening 
statements, we're happy to hear those. We'll ask the 
unclassified questions, and then we will go into the classified 
setting. Fair enough?
    Mr. Cummings. Okay.
    Chairman Chaffetz. Okay.
    We're pleased to welcome the Honorable Peter Kadzik, 
Assistant Attorney General for Legislative Affairs at the 
United States Department of Justice; the Honorable Julia 
Frifield, Assistant Secretary of the Bureau of Legislative 
Affairs at the United States Department of State; Mr. Jason 
Herring, Acting Assistant Director for Congressional Affairs at 
the Federal Bureau of Investigation; Ms. Deirdre Walsh, 
Assistant Director for Legislative Affairs at the Office of the 
Director of National Intelligence; Mr. Neal Higgins, the 
Director of Congressional Affairs at the Central Intelligence 
Agency; Mr. James Samuel, Jr., Chief of Congressional Affairs 
at the National Geospatial-Intelligence Agency.
    And help me with your last name, Mr.----
    Mr. Soule. Soule.
    Chairman Chaffetz. --Soule. Mr. Trumbull Soule is Director 
of Legislative Affairs at the Office of the National Security 
Agency/Central Security Service.
    We thank you for being here. Pursuant to committee rules, 
all witnesses are to be sworn before they testify.
    If you'll please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you.
    Let the record reflect that the witnesses all answered in 
the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your questions--or your comments to 5 
minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF PETER KADZIK

    Chairman Chaffetz. I'm not sure who has an opening 
statement and who doesn't. We haven't been submitted anything.
    Mr. Kadzik, do you have any opening comments?
    Mr. Kadzik. No, I do not have an opening statement, Mr. 
Chairman, but I would note for the record that I was not 
compelled to be here today. I came here voluntarily.
    Chairman Chaffetz. Let the record reflect that none of them 
ultimately accepted service in terms of accepting the subpoena. 
I'm just saying, in general, it did require us to get to the 
point where I signed subpoenas and presented those subpoenas, 
but all of the witnesses here today ultimately came here 
voluntarily. And I appreciate you highlighting that.
    Mr. Kadzik. I'm not sure that those subpoenas were produced 
too, but they weren't----
    Chairman Chaffetz. And Mr. Kadzik was not one of those 
people. Let's be clear here.
    Yes, Ms. Frifield.
    Ms. Frifield. I don't have a formal opening statement, but 
I did want to clarify, sir, that I did not refuse to come up. 
We asked clarifications on what exactly you were looking for 
because it seemed uncertain to us what you asked the State 
Department about these documents that were produced by the FBI. 
So we--I'm happy to be here and try to answer your questions as 
best I can.
    Chairman Chaffetz. Mr. Herring.
    Mr. Herring. Thank you, Mr. Chairman. I do have a few 
opening remarks to make.
    Chairman Chaffetz. Yes. You're now recognized.

                   STATEMENT OF JASON HERRING

    Mr. Herring. Thank you, Mr. Chairman, Mr. Cummings----
    Chairman Chaffetz. You can move that microphone just 
straight up right in there. Yeah, there you go.
    Mr. Herring. Better.
    Thank you, Mr. Chairman, Mr. Cummings, members of the 
committee for the opportunity to discuss our production of 
documents in this highly unusual case with intense public 
interest. I am Special Agent Jason Herring, the Acting 
Assistant Director for the FBI's Office of Congressional 
Affairs.
    In early July, Director Comey appeared before this 
committee and answered questions for almost 5 hours to explain 
the FBI's investigation and conclusions regarding the email 
matter. At that hearing, and at every opportunity since then, 
Director Comey has promised that the FBI would be as 
transparent and forthcoming in this investigation as we could 
responsibly be.
    To that end, on August the 16, the FBI provided to our 
congressional oversight committees a number of investigative 
documents to the investigation. It included an investigative 
summary of the factual information uncovered during the course 
of our investigation, the relevant FBI interview reports, 
sometimes known as 302s, and the emails that were determined to 
contain classified information.
    We produced these documents to satisfy the committee's 
immediate oversight interest in the FBI's conduct in this 
investigation. This was an unprecedented production and one 
made with extraordinary speed. We did this because we believe 
it's important for oversight committees to understand how the 
FBI reached our conclusion in light of intense public interest 
in this case.
    I am not here today to discuss the merits of the 
investigation, but rather to discuss and answer process-related 
questions with the production of our investigative case 
materials to this committee and our other oversight committees. 
From my conversations with committee staff late last week, I 
believe I have an understanding of some of the committee's 
questions and would like to address those issues head on and up 
front as best I can.
    In order to do that, I do need to be in a closed classified 
setting. I'll reserve the remainder of my opening remarks for 
when we go to the closed classified setting. Thank you.
    Chairman Chaffetz. Thank you.
    Ms. Walsh.

                   STATEMENT OF DEIRDRE WALSH

    Ms. Walsh. Thank you, Mr. Chairman. I'll--I have a brief 
opening statement on behalf of my intelligence community 
colleagues in the interest of brevity.
    Mr. Chairman, Ranking Member Cummings, and members of the 
committee, my name is Deirdre Walsh, and I serve as Director of 
Legislative Affairs for the Director of National Intelligence, 
James Clapper. I'm here in response to the committee's request 
to answer questions about the recent document production by the 
FBI to Congress related to former Secretary of State Clinton's 
email.
    While I understand the Intelligence Community Inspector 
General, or ICIG as we refer to him, may have interacted with 
the inner agency with regard to these documents, by statute, 
the ICIG maintains its own interactions with the Congress 
separate from my office. Accordingly, I cannot speak on behalf 
of the ICIG.
    With regard to the documents produced by the FBI and the 
subject of this hearing, ODNI was not involved with this 
document production. I will, however, do my best to answer any 
of the questions that you may have.
    Additionally, I'm joined by my colleagues from the Central 
Intelligence Agency, the National Geospatial-Intelligence 
Agency, and the National Security Agency in response to the 
committee's request. Given the classification of the underlying 
material, we look forward to discussing sensitive matters in 
the closed portion of the hearing. Thank you for the 
opportunity.
    Chairman Chaffetz. Thank you.
    It's my understanding Mr. Higgins, Mr. Samuel, and Mr. 
Soule, that Ms. Walsh's statements reflect the--I see. Okay.
    We'll now recognize myself for the first set of questions.
    Mr. Herring, what information do you believe that Congress 
does not have the right to see?
    Mr. Herring. So we believe it's important for oversight 
committees to understand how the FBI reached our conclusion.
    Chairman Chaffetz. No, no, no, no, no. Wait, wait, wait. 
I'm asking you a philosophical question here. What does 
Congress not have the right to see?
    Mr. Herring. So I don't know if I can answer that in a way 
that--you know, I think there's more to it than a simple 
answer. I think that each case is sort of specific to its own 
set of facts. I think we try to be--I think Director Comey 
tried to be as transparent as he could with this committee and 
with other----
    Chairman Chaffetz. Do you think he could be--okay.
    Mr. Herring. --other committees as he responsibly can be. 
So I think when he spoke and he answered his questions----
    Chairman Chaffetz. Wait, wait. What is it that I as a 
Member of Congress, or any Member on this Congress, either side 
of the aisle, what is it that you believe we don't have the 
right to see?
    See, this is the way our government works. We get to do 
oversight. That's why, since 1814, this committee has been 
doing that. There's executive--let me help you. There's 
executive privilege. Has the President invoked executive 
privilege in this case?
    Mr. Herring. No.
    Chairman Chaffetz. The answer is no. Good. That's right. 
The answer is no.
    Is there any other situation?
    Mr. Herring. Look, when it comes to classified information 
and the classification that deals in the executive order, you 
know, not all the information that we have in our files belongs 
to us. We defer to other agencies when it comes to access to 
their classified information.
    Chairman Chaffetz. But you are the ones that put redactions 
on personal identifiable information, correct?
    Mr. Herring. We did on the personal identifiable 
information, that's correct.
    Chairman Chaffetz. Where in the Constitution does it say 
that I can't see that?
    Mr. Herring. It doesn't address it specifically in the 
Constitution.
    Chairman Chaffetz. So can you cite any legal case, any 
precedent that says that Congress can't look at personal 
identifiable information?
    Mr. Herring. I cannot cite any legal case.
    Chairman Chaffetz. Did--are you aware that Congress is 
exempt from the Privacy Act?
    Mr. Herring. I am.
    Chairman Chaffetz. Does the FBI treat congressional 
document requests as FOIA requests?
    Mr. Herring. No.
    Chairman Chaffetz. Will the FBI provide Congress all of the 
302s?
    Mr. Herring. All of the 302s? We have one set that you've 
been provided already. The rest of them are coming through the 
FOIA process.
    Chairman Chaffetz. Wait, wait, wait. We're not--FOIA 
process. You mean I got to fill out a FOIA request?
    Mr. Herring. You can. Not necessary.
    Chairman Chaffetz. When--here's the problem. You handpicked 
the 302s to give to us. My understanding, your discussion with 
staff. And I appreciate your accessibility with the staff, 
you've been good, and you're new. For your first time hearing, 
this is a tough one, but the reality is, you should give us all 
the 302s.
    Mr. Herring. So let me say this. I think that--I think the 
director made principle decisions about what to say to Congress 
when he was here and also what to provide to Congress. As far 
as the redactions and----
    Chairman Chaffetz. Wait. Where do I find that?
    Mr. Herring. --personally identifiable----
    Chairman Chaffetz. Do we just let everybody in government 
decide that they're based on their own individual principles, 
that's what Congress--see, it's trust but verify is how it 
works. You don't get to decide what I get to see. I get to see 
it all.
    I was elected by some 800,000 people to come to Congress 
and see classified information. I was elected by my colleagues 
here to be the chairman of this committee. That's the way our 
Constitution works.
    Will the FBI provide to Congress the full file with no 
redactions of personal identifiable information?
    Mr. Herring. I cannot make that commitment sitting here 
today.
    Chairman Chaffetz. Then I'm going to issue a subpoena and 
I'm going to do it right now. So let's go--I've signed this 
subpoena. We want all the 302s, and we would like the full 
file.
    You can accept service on behalf of the FBI?
    Mr. Herring. Certainly.
    Chairman Chaffetz. You are hereby served.
    We have a duty and a responsibility. You can cite no 
precedent, nothing in the Constitution, no legal precedent. You 
know this is important to us. You now have your subpoena. We 
would all like to see this information.
    I've gone past my time. I'm coming up on going past my 
time.
    I'll now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. You've been at your job 4 weeks?
    Mr. Herring. Yes, sir.
    Mr. Cummings. I can't hear you.
    Mr. Herring. Yes, sir.
    Mr. Cummings. And you were--you used to work for one of our 
distinguished colleagues, Mr. Goodlatte. Is that right?
    Mr. Herring. Yes, sir.
    Mr. Cummings. A Republican.
    So I'm going to--so you're familiar with Congress then?
    Mr. Herring. Yes, sir.
    Mr. Cummings. I'm going to save most of my questions for 
the classified session, but I do want to address the redaction 
issue briefly.
    When the FBI produced these materials to Congress, their 
cover letter stated, and I quote, ``the FBI has redacted 
personal--personally identifiable information as appropriate,'' 
end of quote. Chairman Chaffetz publicly announced he wanted 
the FBI to lift these redactions. He stated, and I quote, ``we 
are going to call on the FBI next week--this week--to give a 
version where there is nonclassified--the unclassified material 
and the classified material redacted so that it could be out 
there in the public,'' end of quote.
    The problem is that there is no legitimate basis for the 
demand. Director Comey has already provided us with an 
unprecedented level of transparency into the FBI's 
investigation and internal decisionmaking.
    Now, I'm going to stop there for a moment. And you said 
yourself, I think at least twice, that there has been 
unprecedented discovery here. I mean, what did you mean by 
that? And I don't want to take the words out of your mouth.
    Mr. Herring. No, I mean----
    Mr. Cummings. Correct me if I'm wrong.
    Mr. Herring. I think in this particular case, you know, we 
don't typically make our case files available. They're sort of 
internal work product. There's a lot of sensitive information 
in there. Even the unclassified stuff is sensitive to a great 
deal. I think that we made a principle decision with redacting 
the PII only for those individuals who are not already in the 
public domain.
    You sort of asked why did you do that? Well, from my 
perspective, as an agent, you know, any investigation, 
including a high-profile investigation like this one, or any 
other investigation really, it's critical for us as FBI agents 
to obtain cooperation from members of the public. As we go out 
and we talk to members of the public in any case, we need them 
to be willing to participate in the judicial process.
    A lot of times people, their initial reaction is, you know 
what, I don't want to get involved. As an agent, you talk with 
somebody, you try to protect them as best you can. Sometimes 
you have to call them as a witness at trial, sometimes you 
don't. But witnesses who speak with us need to have confidence 
that they can talk to the FBI without risk of undue exposure.
    In this case, we were concerned about lifting the PII 
redactions for individuals who are not already in the public 
domain. It might have a chilling effect on the willingness of 
other members of the public in the future to cooperate with us, 
particularly in an investigation like this.
    And so I think that Director Comey's--or what we as an 
agency tried to do was to satisfy the needs of the Oversight 
Committee by letting you all see exactly what we did in our 
investigation, the investigative steps we took, and how we came 
to that conclusion. I think he did it in the form of taking 
questions for more than 4 hours, but also making our files 
available, and that's not something that we typically do.
    We did make a principle decision as far as how are we going 
to effect this, how are we going to give that visibility to our 
oversight committees. We made a very thoughtful, I think, 
response in redacting only limited PII for the people that are 
not already in the public. And really, from my perspective as 
an agent, this is Jason talking----
    Mr. Cummings. How long have you been an agent?
    Mr. Herring. 17 years.
    Mr. Cummings. Okay.
    Mr. Herring. And so from my perspective as an agent, I 
think we have to protect the integrity of our investigations, 
and I don't want there to be a chilling effect--or I wouldn't 
want there to be a chilling effect for other people cooperating 
in similar cases like this going forward.
    Mr. Cummings. Well, one of the things that I asked Director 
Comey about was this whole process, when you've got the 
Congress getting more and more information from the FBI, and 
whether it would have a chilling effect. Do we place ourselves 
in a position where if the Congress does not like a decision 
made by the agency, then--and then they dig--I mean, how much--
you know, how often will that be happening?
    In other words, so that chilling effect--and then I--you 
know, and then--you know, I wonder, well, other people, if a 
decision--somebody in Congress doesn't like the decision, do we 
set more and more precedents so that people can come in behind? 
And Director Comey said he had an all-star group of agents and 
they had a unanimous decision. And I just, you know--but you 
were talking about the chilling effect.
    So you--do you think that--first of all, who made the 
decision with regard to the redactions, since that's what we're 
supposed to be here about? I mean, I'm just curious, who makes 
those decisions?
    Mr. Herring. I think that was made at the highest levels in 
the Bureau.
    Mr. Cummings. And does that mean Director Comey?
    Mr. Herring. Absolutely.
    Mr. Cummings. All right.
    Mr. Herring. If I can say just sort of----
    Mr. Cummings. Please do. I have--I thought I had some time, 
but go ahead.
    Mr. Herring. I mean--I mean, I do think it's reasonable to 
think there would be a chilling effect. This is a very public 
case. Everybody out there is watching it. And we start lifting 
personally identifiable information, I think there--I think 
that potentially could have some impact going forward.
    I do think, though, that, you know, we're not trying to 
play hide-the-ball with Congress. We want Congress to be able 
to do its job, this particular Oversight Committee do its job, 
and to understand really, you know, what we did in the 
investigation, how we came to that conclusion. And we did that 
in part by, you know, releasing the investigative summary and 
the 302s.
    Mr. Cummings. Thank you very much.
    Mr. Herring. Thank you.
    Chairman Chaffetz. Some of the 302s. And when you don't 
show up at a meeting that we request behind closed doors, kind 
of lose that opportunity.
    Mr. Herring. If I could----
    Chairman Chaffetz. No. We're going to recognize the 
gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Agent Herring, did the FBI interview the sender 
of all emails that contained classified information?
    Mr. Herring. You know, I don't know the answer to that 
question, only because I'm a leg affairs guys. I wasn't on the 
investigative team.
    Mr. Gowdy. Can you find? You would agree with me it'd be 
important. You'd want to interview the person who sent the 
classified information, right?
    Mr. Herring. Certainly.
    Mr. Gowdy. Because the recipient thought the ``C'' was just 
the third letter in the alphabet. You might be curious whether 
or not the sender also was clueless in the way he or she viewed 
classified information, would you not?
    Mr. Herring. That would be a logical investigative step.
    Mr. Gowdy. Can you find out whether or not you interviewed 
the sender of all emails that contained classified information?
    Mr. Herring. Certainly.
    Mr. Gowdy. Do you know if the sender of any of the 
classified emails knew that the information was classified at 
the time?
    Mr. Herring. I don't personally know that. I wasn't part of 
the investigative team. I'm sure that----
    Mr. Gowdy. Can you find out?
    Mr. Herring. Certainly.
    Mr. Gowdy. Can you find out for me?
    Mr. Herring. Yes, sir.
    Mr. Gowdy. There are folks wondering how information gets 
from a classified source into an email. Did your investigation 
shed any light on how classified information could get from a 
classified system into an unclassified email to even be sent? 
I'm not even talking about the receiving of it. I'm talking 
about the sending of it.
    Mr. Herring. I'm sure they did look at that. That would be 
sort of a logical question you would ask as an investigator in 
a case like this.
    Mr. Gowdy. That's what I thought.
    Mr. Herring. But in my legislative sort of affairs 
capacity, I just don't have that kind of----
    Mr. Gowdy. Well, don't sell yourself short. You used to be 
an agent, right? You're still an agent, right? So you know what 
you're doing.
    Did the FBI grant immunity to anyone during the course of 
its investigation?
    Mr. Herring. For immunity questions, I'd have to defer to 
the Department of Justice for that. It wouldn't be an agent who 
would grant that kind of thing. That would----
    Mr. Gowdy. Did the Bureau recommend the granting of 
immunity?
    Mr. Herring. I do not know.
    Mr. Gowdy. Do you know--do you know whether the Department 
of Justice granted immunity to any witnesses?
    Mr. Herring. I know I saw--I saw some articles last week, 
but that's the extent of my----
    Mr. Gowdy. Well, surely you have better sources than he 
media for that, don't you? You can ask the guy sitting two 
people down from you.
    Mr. Herring. I would have to defer to the Department of 
Justice, sir.
    Mr. Gowdy. Do you know whether any witnesses asserted any 
privileges while they were being interviewed?
    Mr. Herring. I don't know.
    Mr. Gowdy. But the Bureau would know that, right, because 
they would have asserted the privilege while you were in there?
    Mr. Herring. I'm sorry?
    Mr. Gowdy. The Bureau would know that, right, because that 
privilege would have been asserted perhaps while you were in 
there conducting the interview?
    Mr. Herring. What kind of privilege are you talking about? 
Like attorney/client privilege or what privilege are you 
talking about?
    Mr. Gowdy. Oh, there are a bunch of privileges. There's 
priest-penitent. I'm guessing that one didn't come up. There's 
doctor-patient. I'm guessing that one didn't come up. There's 
the Fifth Amendment privilege against incrimination. That one 
might have come up. Attorney-client privilege. Again, there 
have been media reports that that one came up.
    Mr. Herring. Sir, I just don't know the answer to those 
questions.
    Mr. Gowdy. Have you ever heard the--had the attorney-client 
privilege come up during any of your investigations?
    Mr. Herring. Certainly.
    Mr. Gowdy. Who does the privilege belong to?
    Mr. Herring. The client.
    Mr. Gowdy. So the client can waive it, right?
    Mr. Herring. Can.
    Mr. Gowdy. You understand why Congress might want to know 
whether or not the attorney-client privilege was waived and who 
the client was?
    Mr. Herring. I can certainly imagine.
    Mr. Gowdy. Yeah, me, too. That's why we want to see the 
file, Agent. I mean, you say it's unprecedented. Mr. Cummings 
used to be a criminal defense attorney. He got to see all your 
302s. Ken Buck used to be an Assistant United States Attorney. 
He got to see all of your 302s. Probation officers get to see 
all your 302s.
    Why can't Congress?
    Mr. Herring. Sir, I think we have tried to provide the 
information in a way that is understandable. I think the 
investigative summary tells kind of the story, and I do think 
that the 302s that we provided are the important ones.
    Mr. Gowdy. Let me ask you this. If those summaries were all 
anyone ever needed, why don't you just introduce those in 
trial? Why actually call the witness?
    Mr. Herring. Well, certainly we were--we actually were 
trying to make your life a little bit easier in the light of 
the Oversight Committee.
    Mr. Gowdy. But, see, I don't want my life being made 
easier. I don't want that. I want to know what was said in the 
302s. Because the 302 is itself a summary of an interview, 
right? It's not a verbatim transcript.
    Mr. Herring. That's correct.
    Mr. Gowdy. So you have given me the summary of a summary of 
an interview. And I'm not asking for a verbatim transcript 
because you don't have one.
    Mr. Herring. Certainly.
    Mr. Gowdy. I'm just asking for the 302 so I don't have to 
read your summary. I may read the 302 differently from the way 
you read it. So why not?
    Mr. Herring. So I think we've given you the relevant ones 
as we find it.
    Mr. Gowdy. Relevant according to whom? I am telling you I 
don't think you've given me all the relevant 302s.
    Mr. Herring. Well, the remainder of the 302s will come out 
through the FOIA process.
    Mr. Gowdy. But since when did Congress have to go through 
FOIA----
    Mr. Herring. Correct.
    Mr. Gowdy. --to obtain 302s from an investigation that's 
not even resulting in any prosecutions that your boss has 
already said is over? Since when did we have to go through 
FOIA?
    Mr. Herring. So I think that the 302s we have provided, I 
think that we made a principle decision about what to provide. 
It was certainly made at the highest levels of my agency.
    Mr. Gowdy. All right. I'm out of time. That's what that 
knocking sounds. I'm just going to say, with all due respect, 
you didn't get to decide what we think is relevant, and I do 
say that respectfully. The defense attorneys get it all. I 
think Congress ought to get it all.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Well, thank you, Mr. Chairman. And I'm going 
to reserve my questions to the closed session, but I would like 
to clear up some misconceptions.
    I would say that the campaign season is upon us, and the 
accusations and the charges and the attacks are almost out of 
control. I just spent--I won't get into it, but anyway.
    For several weeks the chairman has been appearing on 
national television saying that the reason that he cannot see 
these emails is because the FBI produced to Congress is because 
they are such a highly sensitive, classified, high level. And 
for example, he stated that these materials were--and I would 
like to put his quote in the record--``so secure and sensitive 
that even I, as the chairman of the Oversight Committee, did 
not have the proper clearance to see it.''
    But in fact, as I understand it, Mr. Herring, Chairman 
Chaffetz has not been able to view these documents. The reason 
he hasn't been able to see them is because the Republican 
chairman of the Intelligence Committee has not allowed him to 
do so. The documents were produced and given to the 
Intelligence Committee, and the Intelligence Committee has a 
process by which they release the documents to people, and he 
has the same clearance as any other Member of Congress who's 
not on the Intelligence Committee. And so the reason he hasn't 
been able to get them is because his own party's leadership has 
not voted to give him this clearance.
    Now, a--as I understand it, the FBI produced a small subset 
of these emails only to the Intelligence Committee. And 
according to House rules, the Intelligence Committee has the 
jurisdiction over certain agencies, and these agencies report 
to the Intelligence Committee.
    So it has a process in place. And for any member who's not 
on the Intelligence Committee, to see these documents, and they 
need to send a letter to the committee, which Chairman Chaffetz 
did, and I have his letter from September 2, and I request 
unanimous consent to place it into the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mrs. Maloney. Okay. So he sent this letter saying he'd like 
to see them and asked permission, and the Intelligence 
Committee needs to take a vote. Now, as I understand it, the 
chairman of the committee has not scheduled a vote that would 
allow the chairman to see these documents.
    Now, I--I just feel that a lot of this is just pure plain 
politics as usual, stirring up a hornet's nest over documents 
he can't see, which are being withheld by his own party. And it 
seems that they do not want to open up the Intelligence 
Committee's jurisdiction at this point. I don't know why 
they're not taking the vote that would allow him to see these 
documents.
    But what our committee's engaged in is nothing--in my 
opinion, nothing more than a partisan election bashing exercise 
stating that these emails can't be seen when they can be seen 
if his own party votes to let him see it. So I just say that 
it's politics as usual, and I'm disturbed about it.
    There is a problem with the classification system. We all 
saw that in the last hearing. Let's work together to correct 
it. But this whole charade is just that, a charade. These 
documents are not being withheld from the chairman because of 
anything any of these witnesses have done. They are being 
withheld by the Republican chairman of the Intelligence 
Committee.
    So I respectfully suggest to my chairman that we bring in 
the chairman of the Intelligence Committee and ask him why he 
doesn't have a vote and release the documents to you. It is not 
the FBI but the House Select Committee on Intelligence who's 
withholding these documents. So----
    Chairman Chaffetz. Will the gentlewoman yield?
    Mrs. Maloney. I most certainly will.
    Chairman Chaffetz. Any one of the four people from the 
Intelligence community here can help answer this. Have you made 
redactions on personal identifiable information to the Intel 
Committee?
    Mr. Higgins, how about you?
    Mr. Higgins. No, we have not.
    Chairman Chaffetz. There's no redactions.
    Ms. Walsh?
    Ms. Walsh. Not to my knowledge.
    Chairman Chaffetz. Mr. Samuel?
    Mr. Samuel. No, Mr. Chairman, not to my knowledge.
    Chairman Chaffetz. Mr. Soule?
    Mr. Soule. No, Mr. Chairman, not to my knowledge.
    Chairman Chaffetz. Can you release these emails into the 
public, and if so, what would happen?
    Mr. Higgins, what happens if we release these emails that 
are--that Hillary--on Hillary Clinton's unsecured server, what 
happens?
    Mr. Higgins. Mr. Chairman, I can confirm that CIA 
participated in the classification review process, and I'd be 
happy to talk about that process in closed session. Needless to 
say, some of the materials do include classified information 
that we do not believe is appropriate for public release.
    Chairman Chaffetz. And do these--are some of these 
materials include sources and methods?
    Mr. Higgins. Mr. Chairman, I'd prefer to discuss any 
further matters relating to classification in closed session.
    Chairman Chaffetz. The gentlewoman's time is expired, but 
thank you so much for yielding to me. I do appreciate it.
    Mrs. Maloney. But reclaiming my time. I get to close in my 
time. You took all my time. I thought the chairman could----
    Chairman Chaffetz. It was pretty good, wasn't it?
    Mrs. Maloney. I think the chairman can have all the time he 
wants.
    I'd just like to conclude by saying, and I'd just ask for a 
second, just a second, what our committee is engaged in is 
nothing but a partisan attack on Secretary Clinton with an 
effort to harm or undermine her presidential campaign. That's 
all it is.
    Get the chairman of the Intelligence Committee to release 
the documents to you. No one is withholding it. The 
Intelligence Committee has jurisdiction over agencies, 
including the FBI. They release their information. They have a 
process. You have appealed to that process. Let's wait for that 
process. Ask him why he's not taking a vote to give you access 
to these documents.
    You're making it look like there's some conspiracy or some 
terrible thing happening when it's really nothing but a 
partisan attack on Secretary Clinton.
    Chairman Chaffetz. I thank the gentlewoman, and I guess 
some indulgence. Where I have a problem is when they redact 
information that is deemed unclassified. I don't understand 
that. It makes no sense, and it's--classification is one issue, 
but when they redact information that has already been 
designated as unclassified, I believe that Congress should be 
able to see that.
    Mrs. Maloney. Mr. Chairman, may I respond?
    Chairman Chaffetz. Sure, yeah.
    Mrs. Maloney. In the hearings that we've had, the witnesses 
have testified that that personal information that has been 
redacted has been to protect the privacy of people and personal 
information. That's on record. But in the classified section, 
we can have more of this clarified.
    Chairman Chaffetz. Thank you. And I appreciate the dialogue 
back and forth.
    Now let's recognize the gentleman from Ohio, Mr. Jordan, 
for 5 minutes.
    Mr. Jordan. Mr. Herring, let me just follow up where the 
chairman was. So did the FBI make the redactions dealing with 
personal identifiable information?
    Mr. Herring. We did, yes.
    Mr. Jordan. You did. That's what I figured. Okay. Mr. 
Herring, you've said we don't have all the 302s, we don't have 
the whole file, and what you did give us, as you just pointed 
out, had lots of redactions.
    Mr. Herring. Yes, sir.
    Mr. Jordan. And the chairman invited you to a briefing last 
week in a classified setting which you said, in your opening 
remarks, where you'd like to discuss this information. So who 
told you not to come to the briefing? Because the chairman was 
there, I was there. In fact, every single Republican member was 
sitting there waiting anxiously for you to come do what you 
just said in your opening statement you wanted to do. So why 
didn't you show up?
    Mr. Herring. So let me say a couple of things here, if I 
could, just to sort of be clear. As far as the 302s and what we 
provided and what we haven't provided, there are a lot of 302s 
or dozens of them, and we prioritized up front what we thought 
were the most important ones. And so those are the ones we 
gave----
    Mr. Jordan. But you got them all, don't you?
    Mr. Herring. --a couple of weeks--we do have--and we're 
working on the others.
    Mr. Jordan. So you can get the paper, you can give it to 
us, or frankly, you could have told us what you just told us 
right there, you could have told us that last Wednesday but you 
didn't come. Why didn't you come?
    Mr. Herring. So I actually want to address it in a 
classified setting, if I could. There were certainly some 
conversations----
    Mr. Jordan. Someone tell you not to come, Mr. Herring?
    Mr. Herring. --conversations----
    Mr. Jordan. Someone tell you----
    Mr. Herring. There were some conversations between me and 
some of the committee staff about what the briefing was going 
to be about.
    Mr. Jordan. No, no, no. I'm asking, did someone tell you 
not to come? You were invited. We were all waiting. We don't 
have all the 302s. We don't have the whole file. You've told us 
you made all the redactions. We were going to ask you about 
that. We were going to do it in a classified setting, which is 
what you preferred and what you want, what you've told us today 
you want, and someone told you not to come. Who told you not to 
come?
    Mr. Herring. It was my decision, but I'd like to explain it 
away in a classified setting.
    Mr. Jordan. Wait, wait, wait. You decided on your own? You 
didn't consult with anyone else?
    Mr. Herring. I certainly consulted with the director's 
office.
    Mr. Jordan. And the director said: It's up to you, Mr. 
Herring. I'm not going to decide. You're going to decide. 
Really?
    Mr. Herring. So a lot of it has to do with what the 
discussion was going to be in the classified briefing, and I 
think there was some confusion, at least on my part, about what 
the expectations were and some of my conversations with 
committee staff last week.
    Mr. Jordan. Did you have any other discussion? Just you and 
Director Comey talked about this? You talk to anyone else?
    Mr. Herring. Certainly. We have our general counsel's 
office, you know, the Department of Justice. There are a number 
of people that were----
    Mr. Jordan. Mr. Herring, was this case different? You said 
you've been around the FBI 17 years. You're now the acting 
director for Legislative Affairs. Was this case different?
    Mr. Herring. I believe this case is different in a lot of 
ways.
    Mr. Jordan. Lot of ways.
    Mr. Herring. I do.
    Mr. Jordan. Can you tell us, can you give me some--why?
    Mr. Jordan. I know it's different in a lot of ways. How 
about this difference. Have you ever had a case in your 17 
years where the subject of your investigation's husband meets 
with the Attorney General just a couple days before you're 
going to interview that individual in your investigation? You 
ever had that happen in your 17 years?
    Mr. Herring. No, sir.
    Mr. Jordan. That's certainly different. Isn't it?
    Mr. Herring. Yes, sir.
    Mr. Jordan. Yeah. You ever have a case, in your 17 years--
and we appreciate your service--you ever have a case where the 
Attorney General announces publicly that she's going to follow 
the recommendations of the FBI, even though she has no idea 
what those recommendations are going to be based on--you ever 
have that happen in your 17 years?
    Mr. Herring. Not in one of the cases I was assigned.
    Mr. Jordan. Yeah. Well, I don't think it's ever happened 
because the Attorney General told me she's never done that 
until this time. Have you ever had--in your 17 years, you ever 
have a director of the FBI, you ever have them do a big press 
conference, walk through all the wrongdoings of the person 
under investigation? You ever have that happen? A big press 
conference before and then make this big announcement? Or 
normally the FBI just kind of announces whether they're going 
to prosecute or not. Right? You ever seen that before?
    Mr. Herring. I mean, certainly we have press conferences. 
Not quite like that one.
    Mr. Jordan. Not quite like that one. That's exactly right. 
And then have you ever had this. Now, maybe this happens, but 
Mr. Cummings said in his opening statement Republicans didn't 
like the answers Mr. Comey gave. Well, that may be true. But 
based on what Mr. Comey did last week where he sent a memo to 
you and all your colleagues, looks to me like a lot of former 
FBI agents and maybe some even current ones didn't like some of 
the answers they got from this investigation. You ever seen 
that before?
    Mr. Comey says in this letter, ``I explained to our alums, 
I'm okay if folks have a different view of this 
investigation.'' So there's obviously some folks who used to 
work in the Justice Department didn't like the outcome either. 
Now, they may be Republicans like Mr. Comey says. They may not 
be. So I've never seen that before either. Have you, Mr. 
Herring?
    Mr. Herring. Frequently we get messages from the director 
on a variety of things.
    Mr. Jordan. Yeah.
    Mr. Herring. I think in this case----
    Mr. Jordan. Two months after he makes the announcements he 
thinks it's important to send a memo out 2 months later to all 
his employees and saying: Hey, I better fill you in on some 
things here, why we did what we did. You ever have that happen 
2 months after the fact?
    Mr. Herring. I think oftentimes he wants the employees to 
understand what's going on and full level of transparency both 
outside the Bureau and inside the Bureau. We're a big agency--
--
    Mr. Jordan. So 2 months later you got a memo.
    Mr. Herring. --36,000 or so employees----
    Mr. Jordan. This case was different. But here's the 
problem, Mr. Herring. It's not supposed to be. It's not 
supposed to be different. Everyone is supposed to be treated 
equally under the law. And I know deep down you know that. 
You're a 17-year servant in our government. And you know that. 
Don't you? It's all--everyone's supposed to be treated the 
same. And in this case, this individual was treated different. 
And everyone in this country knows it. And that's why we're 
having this hearing. And that's why we'd have liked you there 
last week to give us the information a little sooner than later 
tonight when we go into a classified setting.
    Mr. Herring. Sir, can I answer that? I mean, I think it's 
important for us as an agency to be apolitical, to follow the 
facts in any case where it takes us. And I do believe that we 
followed the facts in this particular case. And Director Comey 
certainly made a very difficult decision. But ultimately, at 
the Department of Justice, he makes the determination of 
prosecution.
    Chairman Chaffetz. No, no, no.
    Mr. Jordan. Real quick. Not in this situation because she 
said she was going to take his recommendation.
    Chairman Chaffetz. The gentleman's time is expired.
    Mr. Jordan. It is a false statement.
    Chairman Chaffetz. We're not going to recognize the 
gentleman from Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. First of all, I want to 
thank you for your service. And then regrettably, second of 
all, I need to apologize for the way that you're being treated 
here today. I know that we've worked with a number of you in 
the past and appreciate your service to the country. And unlike 
some folks here, I recognize there's a separation of powers.
    While I do agree that Congress has a very wide jurisdiction 
for investigation, I also know that we are not a law 
enforcement agency. We are not a trial agency. And under the 
separation of powers in this country, it's not consistent with 
the constitution for the legislative branch to overturn a 
decision, especially on an investigation and a potentially 
criminal investigation and you've decided not to prosecute. It 
is completely out of bounds for Congress to overturn a decision 
of a court on one specific case.
    And I want to go back right to the beginning. The notice of 
this hearing, which was supposed to be closed, and so I 
apologize that you're being lambasted and denigrated in public 
when you were asked here to come here to a closed hearing, and 
all this is happening out of bounds and totally inconsistent 
with the chairman's letter that this would be a closed hearing.
    There is a relevant case law, and, Mr. Herring, I would say 
that there is constitutional language that would prohibit 
what's going on here today in requiring you to divulge the 
names of individuals that have been redacted during your 
investigation, and that that constitutional language is in the 
Bill of Rights. And particularly the Fifth Amendment.
    And I want to go back to a case called Watkins versus the 
United States. This was a matter brought forward by Senator Joe 
McCarthy in the House Committee on Un-American Activities. And 
Watkins was brought forward to--he was subpoenaed to testify 
before the House Committee on Un-American Activities. And Chief 
Justice Warren delivered the opinion of the court in that case. 
And he said, There's no general authority to expose the private 
affairs of individuals without justifications in terms of the 
functions of Congress. Nor is the Congress a law enforcement or 
trial agency. These are the functions of the executive and 
judicial departments of government. No inquiry is an end in 
itself. It must be related to and in furtherance of a 
legitimate task of Congress. And investigations conducted 
solely for the personal aggrandizement of the investigators or 
to punish those investigated are indefensible.
    Now, the notice for this hearing says that, number one, the 
purpose is to review the redactions that were made by the FBI 
during their investigation and--excuse me--to review the 
redactions, omissions, and circumstances surrounding your 
investigation.
    Now, as you said before, Mr. Herring, in bringing witnesses 
forward to get them to cooperate with the FBI--well, look at it 
this way. If the law is correct the way the chairman and my 
Republican colleagues are looking at this, here's what we could 
do. This committee could identify somebody--we could refer 
somebody for investigation by you, our secret police, the FBI. 
You could go out and investigate all these people, and then we 
would have the ability to publicly embarrass them by removing 
any redactions that you put in place. That's the world that we 
could create here. And what is the one instance when this 
exercise, this overreach of power is being administered? It's 
when we're investigating the Democratic nominee for President a 
couple of months before the election. That's when this is going 
on. This is terrible. This is absolutely terrible. This is a 
miscarriage of justice.
    And the right of people against unreasonable search and 
seizures, the right of the witnesses that you investigate--and 
I understand this was a 12-month investigation. Earlier in your 
testimony you said that it took--you did 3 years of work in 
about 12 months and pulled in all these people. So if anybody 
at all is mentioned in any of these by a witness who mentions 
another person, that person will suffer the glare and their 
lives will be turned upside down because of what this committee 
wants to do. And that is a violation of our constitution and 
the individual rights of those individuals, just from having 
been mentioned or being approached in an FBI investigation.
    So, Mr. Chairman, I think this is going in the totally 
wrong direction. This is a sad day in the history of this 
committee, I have to tell you. This is a sad goddamn day that 
we're doing this.
    Chairman Chaffetz. The gentleman's time has expired. I 
think that last comment was a bit inappropriate.
    I will now recognize the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Herring, we do have an important responsibility as 
members of this committee. Unlike any other committee in 
Congress, we're the investigations and oversight committee. The 
chairman went through the history of the committee and some of 
the investigations. This particular case we're talking to 
dealing with Secretary Clinton's emails, the case was declared 
closed by the director. Is that correct?
    Mr. Herring. Yes.
    Mr. Mica. And that came after--and I pointed this out the 
day he was here, just an unprecedented series of events. And 
Mr. Jordan, I think, relayed some of the timetable. On Friday, 
July 1, the Attorney General said she would take whatever 
recommendations the FBI came up with. On Saturday, the 2nd of 
July, the vans pull up and they interviewed the witness for, 
what, 4 hours was it?
    Mr. Herring. Something like that. I don't really recall.
    Mr. Mica. Yeah, something like that. And I asked the 
questions if it was recorded, and it was no. Did he participate 
in it, the director? No. Then we found out that there were the 
302s that were taken. Is that correct? Summaries were taken.
    Mr. Herring. A 302 from Ms. Clinton?
    Mr. Mica. Yes.
    Mr. Herring. Yes.
    Mr. Mica. Okay. And then on July 5th, the 4th was a Monday, 
it was announced by the director there would be no prosecution 
or case closed by, basically, the Attorney General the next 
day. That's pretty much the sequence. Isn't it?
    Mr. Herring. I think he made that recommendation, yes.
    Mr. Mica. Yeah. And the case is closed. Now, I've been on 
the committee longer than anyone here. I can never remember an 
instance--and the chairman went back to before the Teapot Dome 
scandal--when even during some of these investigations we have 
always had access to information. And that has been the case, 
hasn't it, that we've always had access, unfettered access, the 
committee? Again, the chairman cited time after time----
    Mr. Herring. I don't know about unfettered access. It's 
before my time----
    Mr. Mica. But we've gotten the information. Again, he has 
that--and I'd like it made part of the record, Mr. Chairman, 
the report that you have.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Mica. And we do know that the Secretary used a private 
server which had emails that contained classified information. 
Is that not right, Ms. Walsh? Or all of this community would 
agree on that?
    Ms. Walsh. About her use of a private server, sir?
    Mr. Mica. The Secretary used a private server, and on it--
and going through the server was classified information. I 
mean, everybody, unless you're on another planet, knows that, 
including these--they're all shaking their head affirmatively.
    The director, when he was here, said that he didn't know 
if--there was a possibility that it could have been hacked. 
That information could have been made public. That's really a 
national security issue here too, that Congress in its 
responsibility to investigate is now being denied the 
information about what really took place. You're participating 
in keeping that information from us, Mr. Herring.
    Mr. Herring. If I could just say a couple of things. You 
know, one, on the personally identifiable information, 
obviously I have a subpoena here for that now. I engaged Mr. 
Chaffetz's staff earlier today about a compromise that's----
    Mr. Mica. Well, we're going to get the 302s one way or 
another. But you have not given us all the 302s. Right?
    Mr. Herring. Not yet. We did prioritize them and we did the 
most----
    Mr. Mica. That's not a question. You don't get to 
prioritize, never in the history of investigations that I've 
participated in. We want the information. We are entitled to 
the information. We are the investigative branch. Collectively 
we represent the American people.
    Mr. Herring. Certainly. I think----
    Mr. Mica. And you have denied that. Now, we've had to file 
with you, Mr. Kadzik, a referral. How long before you act on 
the referral? You have the referrals?
    Mr. Kadzik. We have the letter from the chairman and 
Chairman Goodlatte as well, yes.
    Mr. Mica. What's the timetable? I mean----
    Mr. Kadzik. I can't give you a timetable. We've referred 
it. It's being reviewed. And I can't give you a timetable for 
an investigation.
    Mr. Mica. You are again withholding information that this 
committee legitimately requested. The director is, and he 
promised that he would provide us. That's not acceptable.
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. Cummings. Chairman?
    Chairman Chaffetz. Yes, the ranking member?
    Mr. Cummings. If the gentleman would just yield for just 
one second. Mr. Mica asked a question that just sparked my 
interest. You said you were having discussions with the 
Republican staff. Is my staff involved in those discussions? 
I'm just curious.
    Mr. Herring. Not as of today, no, sir.
    Mr. Cummings. Not as of today?
    Mr. Herring. Well, I had a conversation with Mr. Chaffetz's 
staff earlier today. But your staff was not a part of it, sir.
    Mr. Cummings. Is that--I mean, is that your normal course 
of doing things? We do represent 700,000 people each over here.
    Mr. Herring. Yes, sir.
    Mr. Cummings. And you are from the Congress. You worked for 
Goodlatte. Is that right?
    Mr. Herring. Yes, sir.
    Mr. Cummings. All right.
    Chairman Chaffetz. I now recognize the gentleman from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    First of all, Mr. Chairman, there's an article that 
appeared today in Newsweek on emails, in Newsweek magazine, and 
I would ask that the article be entered into the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Connolly. Now, let me just read a little bit from this 
article. It says, ``Clinton's email habits look positively 
transparent when compared with the subpoena-dodging, email-
hiding, private-server-using George W. Bush administration. 
Between 2003 and 2009, the Bush White House lost 22 million 
emails.'' Twenty-two million. ``This correspondence included 
millions of emails written during the darkest period of 
America's recent history when the Bush administration was 
ginning up support for what turned out to be a disastrous war 
in Iraq with false claims that the country possessed weapons of 
mass destruction, and later, when it was firing U.S. attorneys 
for political reasons. Like Clinton, the Bush White House used 
a private email server. It was owned by the Republican National 
Committee. And the Bush administration failed to store its 
emails, as required by law, and then refused to comply with a 
Congressional subpoena seeking some of those emails.'' I guess 
the past is prolonged.
    The chairman mentioned that Abraham Lincoln was a member of 
this committee. Abraham Lincoln--maybe that wasn't auspicious, 
Mr. Chairman, because he only served one term and couldn't get 
elected back home. He was a Whig at the time. And he spent his 
time worried about things like the Wilmot Proviso, trying to 
end the slave traffic in Washington, D.C., the Nation's 
capital, and fighting the slavocracy and trying to move this 
country to limit and ultimately abolish a very evil 
institution. That's what he spent his time doing.
    We're spending our time trying to pillory somebody about 
how she managed/handled her emails, while she was traveling the 
world on behalf of this country to 111 countries trying to 
restore the U.S. Credibility and foreign policy after the 
incredible damage done in 8 years of the previous 
administration. I guess if I were in my friend's situation, I'd 
grasp at this straw too.
    Mr. Herring, my friend Mr. Jordan tried to suggest that 
you, the FBI, have handled this case very differently than the 
normal course of justice to an American citizen. I guess 
because of the high profile nature, you handled it very 
carefully. Is that correct?
    Mr. Herring. Yes, it is. And----
    Mr. Connolly. So it was different in that sense. But we had 
Director Comey, who was a, by the way, registered Republican 
until very recently, we had him before our committee. And I 
asked him under oath: Did the witness involved, the primary 
witness here involving these emails, did she lie? No. Did she 
deceive? No. Did she evade? No. Did she obfuscate? No. Did she 
deliberately keep or withhold relevant information requested 
from the FBI? No. Is that your understanding as well?
    Mr. Herring. I would defer to Director Comey's comments.
    Mr. Connolly. Mr. Mica says, or somebody said, you know, 
the case is closed. And you affirm that?
    Mr. Herring. Yes.
    Mr. Connolly. Why? Why is the case closed? What's your 
understanding of that, Mr. Herring?
    Mr. Herring. Decision made at the highest level.
    Mr. Connolly. And the decision was, according, you said you 
read the newspapers, the director of the FBI says it wasn't 
even a close call. Is that your understanding?
    Mr. Herring. Correct. Yes.
    Mr. Connolly. Correct. No special treatment here. It wasn't 
even a close call. This is political theatre.
    302s. Could you tell us what 302s are? My friend Mr. Gowdy 
knows what they are, but not all of us do. We're not all 
lawyers.
    Mr. Herring. So 302 for us is a term of art. It's simply a 
form that which we summarize an interview.
    Mr. Connolly. And how often do you provide 302s to 
Congress?
    Mr. Herring. Rarely.
    Mr. Connolly. Rarely? Why?
    Mr. Herring. Usually, we don't share the investigative 
files outside of----
    Mr. Connolly. So our request is unusual. Is that correct? 
You said you don't do it very often.
    Mr. Herring. Correct. Yes. In some sense it is. We don't 
get that request very often and we certainly don't provide them 
very often.
    Mr. Connolly. And to protect people----
    Mr. Herring. Yes, sir.
    Mr. Connolly. --from raw interviews. Is that correct?
    Mr. Herring. From----
    Mr. Connolly. Or the summaries of those interviews.
    Mr. Herring. To protect people from--I'm sorry. I missed 
the----
    Mr. Connolly. From raw material from an interview.
    Mr. Herring. Certainly.
    Mr. Connolly. Right. Redactions. How unusual are 
redactions? This is unique to this case. Is that correct?
    Mr. Herring. No, no. We do redactions from time to time.
    Mr. Connolly. Why?
    Mr. Herring. Really as far as, you know, people do have 
privacy interests. Anytime we release documents outside of the 
FBI, if it's in FOIA, if it's another avenue, have to review 
those and apply----
    Mr. Connolly. If the chairman will indulge me one more 
question, and then I'll cease and desist.
    Chairman Chaffetz. Gladly.
    Mr. Connolly. Thank you, Mr. Chairman. Mr. Herring, were 
you told at any time before this hearing or at any other time 
during this process that this is highly political and you 
should cover up, obfuscate, evade, deceive, or not provide 
information to protect somebody from our scrutiny?
    Mr. Herring. No, not at all.
    Mr. Connolly. Has anybody at this table----
    Chairman Chaffetz. No, no. The gentleman's time has 
expired. We have votes on the floor that are 10 minutes away, 
and we have members who still haven't asked questions. Plus, we 
need to do a recorded vote. So we're going to have to--we're 
going to have to leave it here.
    And I now recognize----
    Mr. Connolly. I appreciate the chairman's indulgence.
    Chairman Chaffetz. --the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Herring, would you say that the FBI's investigation and 
the delivery of documents have been very systematic in 
principle?
    Mr. Herring. Yes. As far as delivery of----
    Mr. Meadows. So there's no haphazard method of delivering 
documents?
    Mr. Herring. The documents we provided to Congress, sir?
    Mr. Meadows. Yes.
    Mr. Herring. No, I think it's been thoughtful and 
deliberative and----
    Mr. Meadows. Okay. Can you tell me why you didn't deliver 
the documents that the chairman asked for on July 11th to the 
committee? You didn't deliver them to the committee. You 
actually delivered them to another entity. Did you not?
    Mr. Herring. That's correct. We delivered them----
    Mr. Meadows. Why did you not deliver it to the committee?
    Mr. Herring. Well, because those documents contain 
classified and other sensitive materials. We need to make sure 
they're handled appropriately.
    Mr. Meadows. All right. So are you willing to deliver all 
the unclassified documents to this committee?
    Mr. Herring. So I think that----
    Mr. Meadows. Yes or no. Because you can't have the first 
statement without the second statement. If the reason you sent 
it there was because it was classified, are you willing to give 
all the unclassified documents to this committee?
    Mr. Herring. So the documents that we----
    Mr. Meadows. Yes or no.
    Mr. Herring. We will give--so we've given certain documents 
to the committee already.
    Mr. Meadows. Yes or no. It's a real simple question. Will 
you give all the unclassified documents to this committee, 
since the reason that you gave them to somebody else was that 
there was classified documents?
    Mr. Herring. So the documents----
    Mr. Meadows. Yes or no.
    Mr. Herring. The documents have restrictions on them and--
--
    Mr. Meadows. Yes or no. Why would they have--who placed the 
restrictions? You?
    Mr. Herring. No.
    Mr. Meadows. FBI?
    Mr. Herring. Yes.
    Mr. Meadows. So the answer is you placed restrictions, so 
you're not going to give the unclassified documents to this 
committee.
    Mr. Herring. So we've given this committee access to all 
the documents through----
    Mr. Meadows. That's not the question. It's a great answer 
to a question I didn't ask.
    Are you willing to give the unclassified documents to this 
committee?
    Mr. Herring. All I can do is tell you that I'll take it 
back.
    Mr. Meadows. All right. So let me ask you another question. 
Because you said that it was systematic. I went to the 
classified room, and there's two big binders there. One binder 
had some documents. The second binder that we got from the FBI 
had more documents than the first binder, and yet they were 
supposed to be identical. Would you say that was----
    Mr. Herring. Sir, I would like to address this in the 
classified setting, if I could.
    Mr. Meadows. Was that an oversight?
    Mr. Herring. I think the details are important of what the 
differences are.
    Mr. Meadows. But we just asked for a second copy. So would 
that not be haphazard? It didn't seem too methodical. Because 
when we went page for page, they didn't match up. So who made 
the decision to give us a different set?
    Mr. Herring. I'd like to address that in the closed 
session, please.
    Mr. Meadows. Well, let me just say this. There was 27 new 
emails. There was a number of different types of information 
that didn't seem to go. And I don't want to share anything 
classified. So you admit that the first set and the second set 
were not identical?
    Mr. Herring. They were not identical. There were some 
differences.
    Mr. Meadows. Okay. So what were the nonclassification 
agency equities that prevented the initial disclosure of the 27 
emails that we got in the second batch?
    Mr. Herring. Again, in the classified session I'd prefer 
to----
    Mr. Meadows. Were all of those from one agency?
    Mr. Herring. I prefer to address it outside of this 
setting.
    Mr. Meadows. Okay. I understand that all of those were from 
one agency. Is that correct?
    Mr. Herring. Look, the whole issue is sort of the handling 
of classified information.
    Mr. Meadows. So what was the agency?
    Mr. Herring. I don't want to get into that here in this 
setting. I'm happy to answer your question.
    Mr. Meadows. Well, I have one of the emails that was 
withheld that said that it was later marked ``unclassified/CIA 
use only.'' So was that your justification for withholding it?
    Mr. Herring. I'm sorry. I'm not sure I understand.
    Mr. Meadows. Well, it said ``unclassified/CIA only.'' So, 
Mr. Higgins, let me come to you. Did you read those emails that 
were in the second batch?
    Mr. Higgins. Sir, I'd prefer to answer any questions about 
the classification review in a closed setting.
    Mr. Meadows. All right. So no reason why they were 
withheld?
    Mr. Higgins. I'd prefer to answer any questions about the 
classification review in a closed setting.
    Mr. Meadows. All right. So I understand you're asking for 
those documents back. Is that correct? That's not classified. 
Are you asking for them back?
    Mr. Higgins. Sir, I'd prefer in a closed session to answer 
any questions about the classification review.
    Mr. Meadows. All right. Did Director Brennan talk to you 
about that, Mr. Higgins?
    Mr. Higgins. Again, sir, I'd prefer to answer those 
questions----
    Mr. Meadows. All right. I can see where this is leading. So 
let me finish this by saying, you have finished all the 
redaction, is that correct, Mr. Herring, on what you gave us on 
the unclassified documents?
    Mr. Herring. What do you mean, finished?
    Mr. Meadows. The redaction. The copies that we got to see 
on those unclassified documents, are the redactions done?
    Mr. Herring. For the ones that you all have, yes. They're--
--
    Mr. Meadows. All right. So will you comply with the Federal 
law to release those in 20 days according to FOIA law?
    I'll yield back.
    Chairman Chaffetz. I'm sorry, what was the gentleman's 
answer? What was your answer to that question?
    Mr. Herring. The redactions are completed for the ones that 
are here with Congress, the ones we released. We're working on 
the other--the remaining 302s. The PII redactions for the 
remaining 302s are in process.
    Chairman Chaffetz. Well, what I believe Mr. Meadows is 
asking is that under FOIA, there is a 20-day requirement to 
respond to a FOIA request. Now that we know that they're all 
done, will you release those within the 20-day timeframe?
    Mr. Herring. So I'm not a FOIA guy. They're not all 
completed for the other 302s, the remainder----
    Chairman Chaffetz. Are there any that are completed?
    Mr. Herring. I'm sorry.
    Chairman Chaffetz. Are there any that are completed?
    Mr. Herring. I don't know the status. I don't know the 
status of all----
    Chairman Chaffetz. We'll go into that tomorrow. We've gone 
past our time.
    Let's now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Herring, I want to give you a better chance to answer 
some of my colleague Mr. Meadows' questions. First of all, your 
title is you are the acting assistant director for 
Congressional Affairs of the FBI. Is that correct?
    Mr. Herring. That's correct.
    Mr. Cartwright. And you're in that post for how long?
    Mr. Herring. About a month.
    Mr. Cartwright. Did you say you used to work for Mr. 
Goodlatte?
    Mr. Herring. I did a detail to the Hill, to Judiciary, for 
about 15 months.
    Mr. Cartwright. Oh, okay. And was that reporting to Mr. 
Goodlatte?
    Mr. Herring. Certainly did. I was actually technically 
assigned to the Crime Subcommittee and Sensenbrenner was the 
chair of that.
    Mr. Cartwright. And the Goodlatte we're talking about is 
the Republican chairman of the House Judiciary Committee. Is 
that correct?
    Mr. Herring. Yes, sir.
    Mr. Cartwright. Okay. Now, you just were hammered with all 
of these yes or no questions, and I could see you having 
trouble with them. The trouble you were having, Mr. Herring, 
did not stem from your lifelong ambition to protect Secretary 
Clinton. Did it?
    Mr. Herring. No, sir.
    Mr. Cartwright. All right. In fact, the pointed question 
that my good friend Mr. Meadows was going over and over about 
was will you turn over certain documents, yes or no. You're 
unable to say yes or no because that's not your call. You have 
to take it back to the office and take it up the chain of 
instruction. Don't you?
    Mr. Herring. Yes, sir.
    Mr. Cartwright. That's why you couldn't answer yes or no.
    Mr. Herring. Certainly.
    Mr. Cartwright. Well, how fair was it for anybody to hit 
you with that kind of yes or no question when you couldn't give 
a yes or no answer? How fair was that?
    Mr. Herring. I'm here to answer the questions as best I 
can.
    Mr. Cartwright. Yeah. And I wonder how fair it is to 
second-guess the FBI officers who are sworn to uphold, defend, 
and protect our constitution, and not caring where the 
political chips may fall. When Director Comey came in and 
testified, up until the time he decided not to prosecute, he 
was universally applauded on both sides of the aisle, 
particularly on the Republican side of the aisle, for his 
judgment, for his service, for his patriotism in this Nation. 
And then when it was his recommendation, which he now says was 
not even close, not to prosecute Secretary Clinton for the way 
she handled her email, all of a sudden he is reviled and all of 
his decisions up and down are being second-guessed by the 
Republicans on this committee. And I agree with my colleagues 
this is nothing but a show trial, it is nothing but political 
theater. And the only reason, the exceptional reason that this 
is happening, is in a couple of months from now people are 
going to have to decide whether to vote for Secretary Clinton 
for President.
    Now, Ms. Frifield, I'm sorry that you and the other 
witnesses are being put in this awkward position today. The 
chairman invited you to a classified hearing, but he is now 
springing this on you. I will withhold most of my questions to 
the classified bit of this. But we have to talk about the 
marking of classified documents.
    I mean, it's being bandied about that documents can't be 
produced because they're highly classified. Well, to be 
classified, it--according to the manual which follows Executive 
Order 13526, a document has to have something that identifies 
who originally classified it. It has to identify the agency and 
office of origin of the classification. It must identify the 
reason for the classification. It must identify the date of the 
classification. And they typically also have a banner both 
across the top and the bottom stating the level of 
classification: Top secret, confidential, eyes only, whatever 
it is.
    Ambassador Kennedy testified that none of the emails 
provided to Congress had any of these indicators. And at our 
hearing, we asked Ambassador Kennedy about three documents, 
three out of 30,000, that included a small C in parentheses. 
Even though the documents didn't have any of these other 
indicators for classified documents, the State Department 
spokesman John Kirby said the markings on those emails were in 
error, and they were not, quote, ``necessary or appropriate at 
the time they were sent as an actual email,'' and Ambassador 
Kennedy agreed.
    We asked him about one of those emails dated August 2, 
2012, and he confirmed that the C in parentheses in that email 
was a mistake. He also confirmed that every paragraph in that 
email was also marked sensitive but unclassified. And we asked 
Ambassador Kennedy whether the FBI consulted with the State 
Department about the classification status of this particular 
email, and he said he'd get back to us.
    My question to you is: Do you know the status of that 
request, Ms. Frifield?
    Ms. Frifield. I believe he's going to get you the answer in 
the next day or so.
    Mr. Cartwright. I thank you, and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    It is the intention of the chair to exhaust the questioning 
appropriate for an opening session. But pursuant to House rule 
XI, clause 2(g)(2), I move that part of the remainder of the 
hearing will be closed to all persons other than the Members of 
the House, staff of the committee with appropriate security 
clearances, the official reporter and the witnesses and their 
counsels with appropriate security clearances, because the 
expected testimony received may include material designated as 
classified. I remind members that this is not a debatable 
motion. Pursuant to the House rules, the motion must be 
approved by a recorded vote.
    The question is on closing part of the remainder of the 
hearing to the public. And, again, it's the intention of the 
chair to allow members to ask further questions in the 
unclassified setting and then go into the classified setting.
    So the clerk on the question, the question is on closing 
part of the remainder of the hearing to the public. The clerk 
will call the roll.
    The Clerk. Mr. Chaffetz?
    Mr. Chaffetz. Aye.
    The Clerk. Mr. Chaffetz votes yes.
    Mr. Mica?
    Mr. Mica. Aye.
    The Clerk. Mr. Mica votes yes.
    Mr. Turner?
    Mr. Turner. Aye.
    The Clerk. Mr. Turner votes yes.
    Mr. Duncan?
    [No response.]
    The Clerk. Mr. Jordan?
    [No response.]
    The Clerk. Mr. Walberg?
    Mr. Walberg. Aye.
    The Clerk. Mr. Walberg votes yes.
    Mr. Amash?
    Mr. Amash. Yes.
    The Clerk. Mr. Amash votes yes.
    Mr. Gosar?
    Mr. Gosar. Yes.
    The Clerk. Mr. Gosar votes yes.
    Mr. DesJarlais?
    [No response.]
    The Clerk. Mr. Gowdy?
    Mr. Gowdy. Yes.
    The Clerk. Mr. Gowdy votes yes.
    Mr. Farenthold?
    Mr. Farenthold. Yes.
    The Clerk. Mr. Farenthold votes yes.
    Mrs. Lummis?
    Mrs. Lummis. Aye.
    The Clerk. Mrs. Lummis votes yes.
    Mr. Massie?
    Mr. Massie. Yes.
    The Clerk. Mr. Massie votes yes.
    Mr. Meadows?
    Mr. Meadows. Yes.
    The Clerk. Mr. Meadows votes yes.
    Mr. DeSantis?
    Mr. DeSantis. Yes.
    The Clerk. Mr. DeSantis votes yes.
    Mr. Mulvaney?
    Mr. Mulvaney. Yes.
    The Clerk. Mr. Mulvaney votes yes.
    Mr. Buck?
    [No response.]
    The Clerk. Mr. Walker?
    [No response.]
    The Clerk. Mr. Blum?
    Mr. Blum. Yes.
    The Clerk. Mr. Blum votes yes.
    Mr. Hice?
    Mr. Hice. Yes.
    The Clerk. Mr. Hice votes yes.
    Mr. Russell?
    Mr. Russell. Aye.
    The Clerk. Mr. Russell votes yes.
    Mr. Carter?
    [No response.]
    The Clerk. Mr. Grothman?
    Mr. Grothman. Yes.
    The Clerk. Mr. Grothman votes yes.
    Mr. Hurd?
    Mr. Hurd. Yes.
    The Clerk. Mr. Hurd votes yes.
    Mr. Palmer?
    Mr. Palmer. Yes.
    The Clerk. Mr. Palmer votes yes.
    Mr. Cummings?
    Mr. Cummings. Yes.
    The Clerk. Mr. Cummings votes yes.
    Mrs. Maloney?
    [No response.]
    The Clerk. Ms. Norton?
    [No response.]
    The Clerk. Mr. Clay?
    Mr. Clay. Yes.
    The Clerk. Mr. Clay votes yes.
    Mr. Lynch?
    Mr. Lynch. Yes.
    The Clerk. Mr. Lynch votes yes.
    Mr. Cooper?
    [No response.]
    The Clerk. Mr. Connolly?
    Mr. Connolly. Aye.
    The Clerk. Mr. Connolly votes yes.
    Mr. Cartwright?
    Mr. Cartwright. Yes.
    The Clerk. Mr. Cartwright votes yes.
    Ms. Duckworth?
    [No response.]
    The Clerk. Ms. Kelly?
    [No response.]
    The Clerk. Mrs. Lawrence?
    [No response.]
    The Clerk. Mr. Lieu?
    [No response.]
    The Clerk. Mrs. Watson Coleman?
    Mrs. Watson Coleman. Yes.
    The Clerk. Mrs. Watson Coleman votes yes.
    Ms. Plaskett?
    [No response.]
    The Clerk. Mr. Desaulnier?
    [No response.]
    The Clerk. Mr. Boyle?
    [No response.]
    The Clerk. Mr. Welch?
    [No response.]
    The Clerk. Ms. Lujan Grisham?
    [No response.]
    Chairman Chaffetz. The clerk will report the tally.
    The Clerk. On this vote, there are 25 yeas and zero nays.
    Chairman Chaffetz. The motion is adopted.
    It is the intention of the chair to reconvene here 7:30, 
and then we will close out the remaining of the unclassified 
questions. We will then, at the appropriate time, depart for 
HVC-210, the Capitol Visitor Center, as it's been prepared for 
a closed hearing of the committee. Only members of the 
committee, designated committee staff, the official reporter, 
the witnesses and their counsel may be present. The clerk is 
directed to allow only these persons to enter at that 
appropriate time. We stand in recess until 7:30.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will resume. We're going to come back into 
order.
    We now recognize the gentleman from Georgia, Mr. Hice, for 
5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Herring, it seems that the State Department initially 
requested the (b)(5) exemption. Is that correct?
    Mr. Herring. Sir, I'm actually--I wasn't in position at the 
time they were doing all of that. So I'm not----
    Mr. Hice. Is that your understanding?
    Mr. Herring. I'm not sure which exemptions they claim. Are 
you talking about the redactions?
    Mr. Hice. Right.
    Mr. Herring. I'm not sure what the State Department asked 
for.
    Mr. Hice. Okay. And it is my understanding that the FBI 
overruled that. Do you have any awareness of that decision?
    Mr. Herring. We don't typically--we're the investigative 
agency. So when it comes to matters of classification, we 
typically defer to the owners of the information. So----
    Mr. Hice. Okay. Well, Ms. Frifield, let me go to you, then. 
Why was State trying to use this extremely broad exemption?
    Ms. Frifield. I'm not responsible for FOIA redactions. So 
I--the FOIA process at all. So I'm afraid I don't have an 
answer to that question.
    Mr. Hice. So you're not familiar with the (b)(5) exemption?
    Ms. Frifield. I know what it is, but I don't--I'm not 
actively involved in the FOIA process and making redactions or 
anything, any aspect----
    Mr. Hice. So you don't have any idea who made that 
decision?
    Ms. Frifield. FOIA's mostly done through our administrative 
bureau. So I would assume it would be someone in that bureau 
that would do it, as the normal course of action of the FOIA 
process.
    Mr. Hice. As a normal course of action given that 
exemption, would anyone outside of State Department have been 
consulted?
    Ms. Frifield. We normally do consult in some cases if 
there's interagency equities. And then they try to reach an 
agreement on what the classification level or redaction should 
be.
    Mr. Hice. So it would be your assumption, then, that 
probably there was some consultation?
    Ms. Frifield. I don't know----
    Mr. Hice. You don't know that, but that would not be 
uncommon. It would somewhat from your understanding be 
something----
    Ms. Frifield. From my limited understanding of the way a 
FOIA process works.
    Mr. Hice. Okay. That particular exemption is basically, 
among at least many people, known as a withhold because you 
want to withhold exemption. Have you heard that expression 
before?
    Ms. Frifield. No, I have not.
    Mr. Hice. Okay. It's very, very broad. And it gives every 
appearance, at least, that there's a reason to try to hide 
information. And that's the frustrating point of all this.
    Let me ask this: What criteria is used, do you have any 
idea, when it comes to redacting information?
    Ms. Frifield. For FOIA?
    Mr. Hice. Well, I would like to draw a distinction between 
FOIA and a request from Congress.
    Ms. Frifield. FOIA is done by--through the FOIA process, as 
I just said, in the--through the administrative bureau. And 
they have a series of very formal redactions which they make 
under the FOIA.
    Mr. Hice. So how does that differ from a request from 
Congress?
    Ms. Frifield. We don't do that kind of redaction at all 
when it comes to Congress.
    Mr. Hice. Well, we're filled with redactions with what we 
have.
    Mr. Kadzik, let me ask you the same question.
    Mr. Kadzik. I'm sorry?
    Mr. Hice. What is the difference between making decisions 
of redactions from a FOIA request versus Congress?
    Mr. Kadzik. Well, I'm not an expert on FOIA requests and 
redactions with respect to FOIA. But we don't use the FOIA 
standard when we produce information to Congress. Typically, we 
provide more information, but we still, you know, protect our 
law enforcement/prosecutorial equities when we make information 
available, and we do it consistent with the constitution and 
statutes that apply.
    Mr. Hice. All right. Let me go back to Mr. Herring. Because 
it seems to me like we're just going around in circles with all 
of this.
    The chairman asked you earlier what you believe Congress 
should not be allowed to see or have information, and basically 
you said it varies from case to case. That's a pretty broad 
difference. Does it vary depending on, some cases, a high-
profile individual?
    Mr. Herring. No, sir. Let me try to answer it this way, if 
I could. When the Bureau provided records to Congress, really, 
we think that the redactions were very light. We redacted 
primarily the personally identifiable information for some of 
the folks. And, honestly, we do usually strive to protect 
information of a purely personal nature. And so as far as----
    Mr. Hice. Excuse me. I've just got 20 seconds left. But 
there's a whole lot more than that that's been redacted. I 
mean, on page 48, for example, you redact Ms. Clinton's birth 
date. The very next sentence, four attorneys of hers are 
mentioned by name, a fifth one is redacted. That's not personal 
information. There are hundreds and hundreds of examples like 
this.
    Mr. Herring. Certainly. I mean, I think a number of the 
folks mentioned in those documents are out there in the public 
in some form or fashion, and I don't think that there's any 
reason to--well, they're----
    Mr. Hice. If they're in the public, then why didn't we get 
it?
    Mr. Herring. The ones that are in the public you did get. 
The ones that are not in the public are the ones that were 
redacted, sir.
    Mr. Hice. So is the standard for Congress based upon what 
you would give the public?
    Mr. Herring. No, sir.
    Mr. Hice. Well, then we should receive that and much more 
information.
    I see my time has expired, Mr. Chairman. I look forward to 
continuing this. Thank you.
    Chairman Chaffetz. Thank you.
    I recognize now the gentleman from Florida, Mr. DeSantis, 
for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Herring, you had said that the case involving Hillary 
Clinton is closed. Did you mean that that also includes the 
perjury referral that the Congress has sent to the FBI? Has 
that case been disposed of?
    Mr. Herring. No, I'm not aware of--I know there have been 
referrals. I have to defer to the Department of Justice for 
where that is in the process.
    Mr. DeSantis. But you can't say that it's been disposed of, 
correct?
    Mr. Herring. No, sir.
    Mr. DeSantis. Okay. Let me bring you in, Mr. Higgins, about 
kind of the nature of the information. Do you work or have you 
worked in your career at the CIA in what is called the SCIF?
    Mr. Higgins. Yes, sir.
    Mr. DeSantis. What is that?
    Mr. Higgins. The SCIF is a sensitive compartmented 
information facility.
    Mr. DeSantis. And what's the purpose of it?
    Mr. Higgins. It is a secure facility in which one can 
handle sensitive compartmented information.
    Mr. DeSantis. So if I have that type of information, TS/
SCI, am I allowed to store it in my office if my office isn't 
certified as a SCIF?
    Mr. Higgins. There are rules for handling classified 
information. I wouldn't want to misstate those rules. But as a 
general principle, compartmented material should be stored in a 
SCIF.
    Mr. DeSantis. And so could I bring it home, even if I lock 
my door at night, put it in my nightstand, if I lock my bedroom 
door, would that meet the qualifications of having SCI 
information if it wasn't certified as a SCIF?
    Mr. Higgins. Unless you have a SCIF in your home, generally 
no.
    Mr. DeSantis. Okay. And we have a SCIF underneath the 
Capitol here. We have briefings here for Members of Congress. 
And when you are going into the SCIF, there are certain 
protocols that you have got to follow. Correct?
    Mr. Higgins. Yes.
    Mr. DeSantis. All the files have to be locked up at the end 
of the night. Correct?
    Mr. Higgins. That's correct.
    Mr. DeSantis. And when the SCIF is unoccupied, the door has 
got to be locked. You can't just leave it open. Right?
    Mr. Higgins. That's correct.
    Mr. DeSantis. And you're not allowed to bring phones or 
electronic recording devices in the SCIF. Correct?
    Mr. Higgins. That is correct.
    Mr. DeSantis. So if I want to sit there and listen to the 
briefing about payments to Iran, if that's classified and we're 
down in the SCIF, if I want to bring my iPhone to check my 
email or to check news clips, I just can't do that, right?
    Mr. Higgins. I would hope not.
    Mr. DeSantis. Okay. Now, has it happened, at the CIA or any 
of the other agencies, where employees have brought that type 
of electronic media into a SCIF?
    Mr. Higgins. I'm sure that people do on occasion 
accidentally bring electronic devices in. There's protocol for 
them reporting that to your security officers and removing it 
from the building as soon as you discover that you have it.
    Mr. DeSantis. And I would say that there's probably been 
instances where SCIFs have been unlocked overnight or been 
unattended and been unlocked, and there's also procedures for 
reporting that, correct?
    Mr. Higgins. Yeah. I have no immediate personal knowledge, 
but I'd assume that there are such cases.
    Mr. DeSantis. Okay. And why do you have to immediately 
report it? I mean, mistakes happen.
    Mr. Higgins. To assess whether there were any consequences 
of a SCIF, for example, of having been unlocked, or an 
electronic device having been brought into a SCIF.
    Mr. DeSantis. Which--and the consequences could mean that 
that information is exposed to hostile actors?
    Mr. Higgins. Potentially exposed one way or another.
    Mr. DeSantis. Okay. And if that happens, what happens at 
the CIA if somebody has not shown themselves to be able to 
handle this in accordance with the applicable rules and 
regulations? Is that something that employees have faced 
consequences for?
    Mr. Higgins. Sir, I'd prefer not to speculate or answer a 
hypothetical. It's a case-by-case basis depending on the----
    Mr. DeSantis. It's not a hypothetical. I'm saying have 
people been--have there been consequences for employees who 
have not followed the proper protocol in the past?
    Mr. Higgins. If people fail to follow security protocols, 
there are consequences ranging from a conversation with a 
security officer to administrative action and up from there.
    Mr. DeSantis. Okay. And administrative action could mean 
loss of security clearance?
    Mr. Higgins. Depending--again, it all very much depends on 
the facts of the case at hand.
    Mr. DeSantis. Now, there's an issue about whether 
classified information is marked or not. Does the fact that it 
has markings, if something is not marked, does that mean it's 
not classified?
    Mr. Higgins. If information is classified, it should be 
marked as classified, both portion markings and headers and 
footers on the beginning and end of the document. But the lack 
of a classification marking does not mean that the material in 
question is not necessarily classified.
    Mr. DeSantis. And if you have, you know--we have people 
that are forward and, you know, you have things like signals 
intelligence and human intelligence, you can get that in forms 
before it ends up getting reduced to a document, correct?
    Mr. Higgins. Yes, one could.
    Mr. DeSantis. And the fact that if I got that, I could not 
then go to an email system or an unclassified area and reduce 
that to writing if it's not properly protected, correct?
    Mr. Higgins. When classified information is reduced to 
writing or put on an electronic system, it should be put on a 
system that is appropriately secure for that level of 
classification.
    Mr. DeSantis. Thank you. I'm out of time.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman. And thank all of you 
for your lengthy and continued service to our country. It is 
appreciated.
    If none of the documents had a classification mark, as what 
has been asserted by many, then how would top secret/special 
access information find its way into an unclassified email's 
content? Anyone can take that.
    Mr. Herring?
    Mr. Herring. I do think this is something we should talk 
about in the next closed setting.
    Mr. Russell. Okay. We will.
    If a sender of information knows that they are sending 
information that came from a classified source, then, I guess, 
would that be a breach of law? If they're sending it 
unclassified or if they are providing the details of that 
information in some form in an--would that be a breach of law?
    Mr. Herring. I think from my perspective, you know, I don't 
want to speculate what the investigative team did here. I 
mean----
    Mr. Russell. We're not talking intent. We're just talking 
about----
    Mr. Herring. Well, I mean, I think there is intent. Those 
things you look at in those kind of cases.
    Mr. Russell. Okay.
    Mr. Herring. It's very fact specific. But, you know, we're 
not really for the investigative team. I mean, I hesitate to--
--
    Mr. Russell. So if they willfully know that they're taking 
it from a classified source to an unclassified source, is that 
a breach of law?
    Mr. Kadzik? Department of Justice.
    Mr. Kadzik. It's hard to answer a hypothetical and----
    Mr. Russell. Well, this is pretty straightforward.
    Mr. Kadzik. No case is straightforward until you look at 
the particular facts.
    Mr. Russell. So I guess, then, if they didn't know, is it 
appropriate to have an unqualified person handle that 
information?
    Mr. Kadzik. I don't know what you mean by ``unqualified.''
    Mr. Russell. Not cleared to handle that level of 
information, top secret/sensitive access program information
    Mr. Kadzik. Well, there are restrictions on access and one 
has to have appropriate clearances----
    Mr. Russell. Absolutely.
    Mr. Kadzik. --in order to handle----
    Mr. Russell. And yet we see that we did have top secret/
special access program information. Is that correct?
    Mr. Kadzik. I don't know that for a fact. I have not looked 
at this.
    Mr. Russell. Mr. Herring?
    Mr. Herring. That really is something that's for the next--
--
    Mr. Russell. Mr. Comey said in an open source here in this 
hearing room that it was so. And so I guess if you allow 
unqualified handlers to access that, then another question 
would be, if a leader, director, or secretary directed their 
staff to handle secret or sensitive information in an 
unauthorized manner, have they breached the law?
    Mr. Herring. Sir, we're here to talk about the process of 
getting the documents to Congress, not the authorized----
    Mr. Russell. But it's very important because I have heard 
your testimony, Mr. Herring, and others that the FBI clearly 
was able to deduce what was sensitive access information, what 
was sensitive information, what was classified information, so 
much so that in order to guard it, they were able to prohibit 
even Congress from maybe seeing some of that because of its 
sensitivity. And we also know Department of State had those 
same concerns, that this was so sensitive that the skilled 
people that are trained at the FBI and are long-serving members 
of the Department of State, serve from administration to 
administration, they were able to deduce what classified 
information was and what sensitive information was.
    And yet we're to believe somehow that Mrs. Clinton, a 
former first lady, a former United States Senator, cleared at 
the highest levels when she was in that capacity, and a former 
Secretary of State, when she was in that capacity, would not be 
able to really deduce that.
    How is that, Mr. Herring, how do you think that that could 
be, that you and all of your professionals in the FBI, and Ms. 
Frifield and all of the professionals that are in the 
Department of State and that we have all of our intelligence 
community, they're able to deduce what that is? And when I had 
a top secret/SCI clearance in my more than two decades in the 
military, I mean, I understood what top secret information was.
    How is it that all of us could figure that out, and yet 
we're to believe that, oh, there's no marking on it. Oh, gosh, 
I'm not sure. I don't know. Would you care to answer that, 
please?
    Mr. Herring. Director Comey addressed this specifically in 
his testimony before this committee, and I would refer to his 
record for those types of questions.
    Mr. Russell. Well, and that's why I asked the first 
questions, that how could people even gain access? How can you 
take it from a cleared one--we just talked about SCIF with Mr. 
DeSantis' question. How is it that you can take it from one 
place to a private server? How is it that you can take 
information from one secure area to an unsecure area? Cut and 
paste? Willful rewrite? Unqualified handler? These are 
questions that the American public has a reasonable expectation 
to answer, and that's why we have oversight.
    And I yield back my time. Thank you for your indulgence, 
Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Alabama, Mr. Palmer, 
for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    And I want to echo the sentiments of several members here 
about our appreciation for your service. We don't take this 
lightly.
    But Mr. Herring, you have mentioned Director Comey's 
testimony several times. And one of the reasons that I have the 
concerns that I have about how things have been handled is 
because of his testimony in which he referred to the handling 
of classified information by former Secretary Clinton as 
extremely careless. I don't recall--I don't ever recall those 
two words being used to describe the actions of anyone who has 
ever served as Secretary of State, extremely careless in 
handling classified information.
    I even--I think Director Comey even expressed some concerns 
that her account, email account or server may have been hacked. 
So I think you need--I think all of you should appreciate the 
fact that as members of the Oversight Committee, we have a 
responsibility to look out for the interest of the whole 
country. This--you know, some folks who try to make this about 
politics. It really isn't. I think there's some legitimate 
concerns here about national security. I think there's 
legitimate concerns about the safety and well-being of our 
officers in the field.
    I just want to ask you, what would happen--you know, Mr. 
Russell just brought this up about the handling of national 
security information, cutting and pasting. What would happen if 
an employee or a contractor moved classified national security 
information to an unclassified system or took it outside the 
SCIF? Would it be taken lightly? What would be the 
consequences? I mean, would there be a writeup? Would there be 
a reprimand? I mean, would you investigate it?
    Mr. Herring. I mean, certainly as a legislative affairs 
person, that's not really my----
    Mr. Palmer. I'm not asking you. I'm asking you--take a 
general--answer in the context the FBI would, would that be a 
problem? Would that be problem for any of you?
    Mr. Herring. Sure, it would. I think it would be--I think 
it would be reported to the security division. I think they 
would take a look at all the facts and circumstances of a 
particular case.
    Mr. Palmer. Let's just do a little hypothetical here. Let's 
just say----
    Mr. Herring. I prefer not to do any hypotheticals.
    Mr. Palmer. Okay. Then I will. I will assume that if you 
were the director of any part of our national intelligence 
agencies or the director of the FBI, and you had an employee 
who repeatedly did--handled classified information with extreme 
carelessness, I would assume, based on your service, that there 
would be some pretty severe action taken. Is that a valid 
assumption?
    Mr. Herring. Yes. I think they're----
    Mr. Palmer. Thank you.
    Mr. Herring. --they're very serious sort of----
    Mr. Palmer. Do you know of anyone who has been reprimanded 
for violating security procedures?
    Mr. Herring. Not immediately--not that immediately comes to 
mind.
    Mr. Palmer. Have you ever copied classified information to 
an unclassified system or accidentally walked out of a 
classified storage space with a classified document you weren't 
supposed to remove?
    Have you, Mr. Kadzik?
    Mr. Kadzik. No, sir.
    Mr. Palmer. How about you, Ms. Frifield?
    Ms. Frifield. No.
    Mr. Palmer. Ms. Walsh?
    Ms. Walsh. No, sir.
    Mr. Palmer. Mr. Higgins?
    Mr. Higgins. I can think of one occasion on which I have 
accidentally removed material from a SCIF, realized it 
immediately, and returned to the SCIF with that material.
    Mr. Palmer. You didn't take it home with you?
    Mr. Higgins. No.
    Mr. Palmer. That's good to know.
    Mr. Samuel?
    Mr. Samuel. No, sir, I have not.
    Mr. Palmer. Mr. Soule?
    Mr. Soule. Sir, I can think of one.
    Chairman Chaffetz. Microphone, please.
    Mr. Palmer. Microphone, please.
    Mr. Soule. Sir, I can think of one instance that I made a 
mistake. I reported it to my staff security officer. The 
document was destroyed.
    Mr. Palmer. So in the two instances where you accidentally 
did something, you showed due diligence, you took care of the 
situation, you did what you should have done, and you reported 
it, in your case, Mr. Soule, to your superior.
    That's not what happened here. So my problem with this is, 
is that--again, I think this committee has a responsibility, I 
think the chairman's articulated that quite well, to exercise 
the oversight the Constitution invests us with, and that we 
need to look into the possibilities of how a Secretary of State 
acting--handling classified information with extreme 
carelessness may have compromised agents in the field, possibly 
our national security.
    There's a number of issues here. And it begs the question, 
if that's not the issue, then why are you withholding 302s? And 
why is so much of this stuff redacted?
    Mr. Herring. I mean, as far as the 302s go, obviously, we 
provided some. There's a lot of them. The rest of them are in 
process. And to the extent that, you know, I can take back and 
see what we can do as far as getting you the access that you 
need, I do think that the personally identifiable information 
is something where I think individuals do have a privacy 
interest, and we generally do try to protect that type of 
information.
    Obviously, one question that obviously we would consider 
is, you know, how does it relate to the oversight interest of 
the committee at hand.
    Mr. Palmer. But you have to let us do our job. We want you 
to do your job, but you have to let us do our job.
    My time has expired. I yield back.
    Chairman Chaffetz. Thank you. We'll now recognize the 
gentlewoman from Wyoming, Mrs. Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    When we're home in our districts, we meet with our 
constituents. And while I was home in my State of Wyoming over 
the August work period, among the things people asked me was 
have you ever read classified documents in the SCIF. And I 
explained that I had on two occasions. In fact, three, visited 
a SCIF by myself where I had to surrender my electronic 
devices, where I was watched while I sat there and read 
classified documents by people who were ensuring that I would 
not write anything down, that I would not use my cell phone to 
take photographs of classified documents and take them out of 
the room.
    For some of us, it's a little intimidating to just sit 
there and read while people are staring at you while you're 
reading, and it's really quiet. So the SCIF experience for--
that I have had as a Member of Congress and that I have related 
to my constituents in Wyoming is very different from the kind 
of thing we're hearing today, where we have heard, at least on 
television, that Secretary Clinton had maybe as many as 11 or 
more devices that she used to communicate with, that she had a 
private server, that there were--there's a classified server 
and an unclassified server, and that if someone takes something 
classified and sort of restates it without noting that it's 
classified, that it can be discovered by people who are hacking 
an unclassified server in the basement of, say, a Secretary of 
State's house.
    This is the kind of thing that concerns my constituents. So 
that's why we're having this hearing. It's not because we're 
trying to make your lives miserable or our lives miserable by 
meeting late some Monday night. It's because our constituents 
are worried that classified information was compromised in ways 
that might allow hackers to refer that information to people 
who want to do harm to America and its allies.
    My question is this. Have any of you that are on this panel 
separated or begun to separate the classified information that 
is in the SCIF from the unclassified information or from the 
sensitive access information? Anyone?
    Mr. Herring, would you--yes or no, have you begun to 
separate that information?
    Mr. Herring. I'm not exactly sure what you're talking 
about, but generally, the information in a classified document 
is portion marked, and that document stays together and it 
stays in the SCIF.
    Mrs. Lummis. Okay. So there is some way--if I could go down 
to the SCIF right now and see those documents that hopefully, 
and we're going to be talking about in a little bit, would I 
know whether I was viewing something that was classified, 
something that was sensitive, something that was unclassified?
    Mr. Herring. The information should be properly portion 
marked.
    Mrs. Lummis. Okay.
    Mr. Herring. Should be able to tell if----
    Mrs. Lummis. So you could separate classified from 
unclassified from sensitive, based on information available to 
you in documents that are currently in the SCIF, right?
    Mr. Herring. If it is properly marked, you can certainly 
distinguish the classified from the unclassified. I do think, 
though, in our production to Congress, which is what we're 
really here to talk about----
    Mrs. Lummis. Uh-huh.
    Mr. Herring. --there are other sensitivities in the 
unclassified information that's sort of nonpublic information. 
It's not--certainly not suitable for public release.
    Mrs. Lummis. Okay. Why have we, as Members of Congress, not 
been provided access to the nonclassified, nonsensitive 
information that is in the SCIF?
    Mr. Herring. Ma'am, I think you've--I think you've been 
given access or certainly the members of this Oversight 
Committee and appropriately cleared staff have been given 
access to all the information that's in the SCIF, ma'am.
    Mrs. Lummis. Mr. Chairman, I would like to yield the 
balance of my time to you.
    Chairman Chaffetz. Thank you.
    Mr. Herring, the problem that we have is that the 
redactions that you've given us don't allow us to look at the 
full and complete file. That's part of the challenge.
    Mr. Herring. Okay.
    Chairman Chaffetz. Let's start with Mr. Soule there. The 
NSA, do you have an understanding of the total universe of the 
compromised classified material that was found in the universe?
    Mr. Soule. Absolutely not.
    Chairman Chaffetz. What--explain that to me. She had--
Hillary Clinton took 4 years of communication outside of a 
secure communication. Do you or do you not have an 
understanding of the universe of that breach?
    Mr. Soule. If by universe, sir, you mean the importance of 
it, I certainly understand the importance of it, but I don't 
have personal knowledge of everything that is said to have been 
released.
    Chairman Chaffetz. Does your agency? Does the NSA 
understand the universe of the breached material?
    Mr. Soule. My understanding is that every document that was 
referred to us--but I will want to talk more in closed session, 
sir--we had the opportunity to review, and I can give you the 
results of that in closed session.
    Chairman Chaffetz. But do you have an accounting that shows 
that you have all of the--there were untold tens of thousands 
of things that were destroyed. We heard testimony from Under 
Secretary Kennedy just last week that they now have 14,900 
additional emails, plus tens of thousands that have been given 
to them in the last 30 days.
    So I'm asking if the NSA understands how much classified 
information from NSA has been compromised in a nonsecure 
setting.
    Mr. Soule. Sir, I'd have to speculate. I do not know that, 
and I don't know that we do know that, but I could take that 
back.
    Chairman Chaffetz. And you'll get that to me by?
    Mr. Soule. Sir, I'll look. I don't know. A week. Is that 
acceptable?
    Chairman Chaffetz. That's fair. That's fair.
    Mr. Samuel, same question.
    Mr. Samuel. Sir, while I prefer to discuss this in the 
closed session, yes, NGA is aware of and has reported back to 
Congress the extent of our equities found in those emails.
    Chairman Chaffetz. Can you give us a general sense, though, 
of--what percentage of the compromise do you believe you're 
aware of?
    Mr. Samuel. Sir, again, I prefer to discuss that in a 
closed session.
    Chairman Chaffetz. Mr. Samuel, when did you first become 
aware that there could have been a compromise of this data?
    Mr. Samuel. Sir, our agency started receiving requests last 
fall to get this information in earnest, and that's when I 
first became aware of it.
    Chairman Chaffetz. Mr. Soule, when did the NSA first become 
aware that there might have been a breach of this classified 
information?
    Mr. Soule. Sir, like my NGA colleague, I believe it was 
last fall, but I don't have that information in front of me.
    Chairman Chaffetz. Okay. Just so the members know, this 
criminal referral started because the Inspector General got 
word that there was classified information in a nonsecure 
setting, they confirmed that it was in a nonsecure setting, and 
that's when they gave the criminal referral to the Federal 
Bureau of Investigation.
    Part of what we need to understand is when did ODNI, CIA, 
NGA, when did they all understand, has all that information 
been recovered? Are we--it's--we need to know whether or not 
ODNI understands the scope of what was potentially sent in 
those emails.
    Do you feel, Ms. Walsh, that ODNI knows 100 percent of what 
was compromised?
    Ms. Walsh. Given that that's outside my role in Legislative 
Affairs, I'd have to take that back.
    Chairman Chaffetz. Can you get that to me? Is a week fine? 
Is that--to ask that question?
    Ms. Walsh. We'll do our best. It's the best I'm going to 
say. We'll do our best.
    Chairman Chaffetz. A week? Is that fair?
    Ms. Walsh. Sure.
    Chairman Chaffetz. Thank you. I appreciate it.
    All right. The gentleman--the gentlewoman yields back.
    Do any other members have any other questions appropriate 
for an unclassified setting?
    Mr. Gosar is now recognized.
    Mr. Gosar. Thank you, Mr. Chairman.
    Mr. Higgins, CIA collects a great deal of human 
intelligence. That is, it collects information from foreign 
individuals often at the risk of that individual's life. Is 
that true?
    Mr. Higgins. Yes.
    Mr. Gosar. Are you aware that the State Department released 
some unclassified emails from Secretary Clinton with a FOIA 
redaction that said, quote, B3CIApersons/org? Are you aware of 
that?
    Mr. Higgins. I will admit, I do not remember every 
classification marking on each of the emails that were released 
pursuant to the FOIA request.
    Mr. Gosar. So let me get this straight. So CIApersons/org 
means information redacted with sensitive information about an 
individual organization affiliated with the CIA, correct?
    Mr. Higgins. I will take your word for it. I don't have the 
FOIA manual in front of me, I'm afraid.
    Mr. Gosar. Okay. So if information from a single or small 
group of CIA officers or agents makes it to our adversaries, 
that could present a huge risk for their safety, right?
    Mr. Higgins. Sir, I wouldn't want to speculate without 
knowing what information we are discussing, and I'd prefer to--
--
    Mr. Gosar. But potentially. I mean, given that 
circumstance, it could potentially have some serious 
ramifications for those people.
    Mr. Higgins. Again, it would all depend on the information 
in question, and I'd prefer to discuss the classification 
review and any classified material in a closed setting.
    Mr. Gosar. Oh, but that's hardly--I mean, a classification 
that we can't talk about right here, is it?
    Mr. Higgins. If information relating to CIA sources of 
methods were disclosed to a foreign adversary, yes, that could 
have adverse consequences.
    Mr. Gosar. So to some degree, protection of classified 
information is life or death?
    Mr. Higgins. It can be, yes.
    Mr. Gosar. Okay. And even a few sentences from a source 
could reveal the--could expose that source, true?
    Mr. Higgins. It would all depend on those few sentences.
    Mr. Gosar. But it could?
    Mr. Higgins. Potentially, yes.
    Mr. Gosar. Okay. So would you say that someone who treats 
information with our spies abroad exceptionally carelessly 
should be trusted with a security clearance?
    Mr. Higgins. Sir, I think that is well outside my realm 
at----
    Mr. Gosar. Well, I just--I watched the chairman ask each 
one of you gentlemen and ladies, going back over classified, 
did you remove any information out of a SCIF or any 
documentation. And those that said yes, said, hey, you went 
back. There were some seriousness to it, right?
    Mr. Higgins. I believe people with access to classified 
information treat that responsibility seriously, yes.
    Mr. Gosar. Say that one more time.
    Mr. Higgins. I said I believe people with access to 
classified information treat that responsibility seriously, 
yes.
    Mr. Gosar. Really?
    Mr. Higgins. I do.
    Mr. Gosar. So why are we here?
    Mr. Higgins. I would defer to the chairman.
    Mr. Gosar. No, no, no, no. So why are we here? Because we 
have a Secretary of State that had a whole server that was 
offline. Kind of unusual, wouldn't you say?
    Mr. Higgins. Again, sir, I am here and ready to answer 
classified----
    Mr. Gosar. That's fine.
    Mr. Soule----
    Mr. Higgins. --in a closed situation
    Mr. Gosar. --NSA is tasked with collecting intelligence 
electronically through signals. Is that correct?
    Mr. Soule. Yes, sir, it's correct.
    Mr. Gosar. Would leaking signals intelligence damage 
national security?
    Mr. Soule. Yes, sir, it would.
    Mr. Gosar. What if the person looking at the intelligence 
thought the information in question wasn't important? Is that a 
valid excuse for leaking signals intelligence?
    Mr. Soule. No, sir.
    Mr. Gosar. Leaking any signals intelligence can reveal our 
signals intelligence capabilities so that even if information 
collected by NSA seem innocuous. Is that correct?
    Mr. Soule. Generally, I agree, sir. It would depend on the 
facts.
    Mr. Gosar. It still should be treated as classified, true?
    Mr. Soule. If it was indeed classified and properly 
classified, it should be treated as classified.
    Mr. Gosar. Has the NSA ever lost an important intelligence 
collection tool--been burned is the quote--because classified 
information about that method made it into the wrong hands?
    Mr. Soule. Yes.
    Mr. Gosar. Would you say that someone who treats NSA 
signals intelligence exceptionally carelessly should be trusted 
with a security clearance?
    Mr. Soule. Generally, I would agree with you, sir, but I 
would have to understand the facts. But in the general premise, 
yes.
    Mr. Gosar. Okay. Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    Does anybody have questions for an unclassified setting? 
Otherwise, it's the intention of the chair to recess and 
reconvene in a classified setting.
    Let's go to Mr. Grothman of Wisconsin.
    Mr. Grothman. Sorry. I just have a couple of questions for 
Ms. Frifield.
    She didn't submit her email records to the State 
Department, right, until December of 2014, almost 2 years after 
she left the State Department, correct?
    Ms. Frifield. I don't have the dates, but I think----
    Mr. Grothman. About.
    Ms. Frifield. --that's in the range is my understanding.
    Mr. Grothman. Right. Was that 2-year delay in turning over 
Federal records in compliance with your policy? What's your 
general policy in how quickly the record should be turned over?
    Ms. Frifield. I believe the rule is that when you leave, 
you should--your records should be turned over, but I don't 
know that there's a time. I don't know if there's a time lag 
that you----
    Mr. Grothman. Maybe a couple of months, not 2 years. Do you 
know of anybody else who took 2 years to turn over their 
records?
    Ms. Frifield. I'm not aware of any. I'm not aware of that.
    Mr. Grothman. Okay. And even then, her submission rate 
eventually turned out to be incomplete. The FBI submitted 
thousands of emails to the State Department that uncovered, in 
the course of their investigation, correct, thousands of emails 
that she didn't turn over?
    Ms. Frifield. I would defer to--I don't know how many she 
didn't turn over.
    Mr. Grothman. Okay.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Grothman. Sure.
    Chairman Chaffetz. The Under Secretary for Management 
Patrick Kennedy testified there were 14,900 additional emails 
and tens of thousands that he received in the last 30 days. Was 
he accurate or inaccurate?
    Ms. Frifield. I assume he's accurate, but I do legislative 
affairs, so----
    Chairman Chaffetz. There we go.
    Go ahead, Mr. Grothman.
    Mr. Grothman. Okay.
    Ms. Frifield. --that's not my specialty.
    Chairman Chaffetz. It's a huge point for us.
    Mr. Grothman. Right. Was her failure to turn over these 
emails in compliance with State Department policy? Do you know 
anybody else since you've been there who hasn't turned over 
that huge number of emails upon leaving?
    Ms. Frifield. I don't--I'm not aware of any, but I don't 
know.
    Mr. Grothman. Anybody not turning over any emails since 
you've been in your position, that you're aware of?
    Ms. Frifield. I don't monitor that, but I think we're each 
responsible for our own emails, and we file them and save them, 
and they give you--through a process to do that.
    Mr. Grothman. You ever hear of anything like this happening 
since you've been involved in the State, anybody not turning 
over emails?
    Ms. Frifield. I haven't really been involved in the records 
retention issue, but I know we're working hard to improve our 
records retention system. We have new processes, new people who 
are involved in helping us all to understand how it's done.
    Mr. Grothman. Okay. Secretary Clinton's IT contractor 
deleted an email archive from their servers after they were 
made aware of a preservation order from the Benghazi Committee. 
Okay. So after they were told to preserve it, they deleted it.
    Was the deletion of that email--of those email archives in 
compliance with State Department policy?
    Ms. Frifield. I think the policy is you're not supposed to 
delete emails.
    Mr. Grothman. Delete them, right. And these are 
particularly severe because she particularly wasn't supposed to 
delete these. So that would be--what would happen to a regular 
garden variety employee of the State Department if they had 
done this sort of thing?
    Ms. Frifield. I don't know. But I think usually you save 
your emails and pass them on as records you're----
    Mr. Grothman. I know that's what you're supposed to do. 
Everybody does it. If another employee, just put somebody in 
your mind, another employee had deleted emails like this, what 
do you think would--what would the State have done about it?
    Ms. Frifield. I honestly don't know.
    Mr. Grothman. They never think about it, never occurred it 
would happen. Okay.
    Will she or any of her aides that helped participate in 
this face any punishment or negative consequences for her 
actions in doing this?
    Ms. Frifield. I can't speak to specifics, but in general, 
when there's any kind of a violation or an issue or infraction, 
it's reviewed through administrative procedure out of the 
Diplomatic Security Office.
    Mr. Grothman. Okay. I'll yield the remaining of my time to 
the chair.
    Chairman Chaffetz. I thank the gentleman.
    Our first round--this round of the unclassified questions 
has concluded. The committee will take a short recess, 
reconvene in the House Visitor Center, room 210 of the Capitol 
Visitor Center to conduct the closed portion of the hearing. We 
will start--we will give you 15 minutes, and try to reconvene 
at 8:25.
    Committee stands in recess.
    [Whereupon, at 8:10 p.m., the committee was recessed, to 
reconvene in closed session.]
    The committee met, pursuant to call, at 5:00 p.m., in Room 
HVC-210, Capitol Visitor Center, Hon. Jason Chaffetz [chairman 
of the committee] presiding.
    Present: Representatives Chaffetz, Gosar, Meadows, Palmer, 
and Norton.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    This is a continuation and the conclusion of our September 
12 hearing on classifications and redactions in the FBI's 
investigative file. We are going to encourage members to go to 
a classified briefing on this topic. But for now, without 
objection, the hearing is adjourned.
    [Whereupon, at 5:01 p.m., the committee proceeded in closed 
session.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              


                                 [all]
</pre></body></html>
